<html>
<title> - THE NATIONAL DRUG CONTROL BUDGET FOR FISCAL YEAR 2007</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
         THE NATIONAL DRUG CONTROL BUDGET FOR FISCAL YEAR 2007

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 16, 2006

                               __________

                           Serial No. 109-168

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
29-579                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
JON C. PORTER, Nevada                C.A. DUTCH RUPPERSBERGER, Maryland
KENNY MARCHANT, Texas                BRIAN HIGGINS, New York
LYNN A. WESTMORELAND, Georgia        ELEANOR HOLMES NORTON, District of 
PATRICK T. McHENRY, North Carolina       Columbia
CHARLES W. DENT, Pennsylvania                    ------
VIRGINIA FOXX, North Carolina        BERNARD SANDERS, Vermont 
JEAN SCHMIDT, Ohio                       (Independent)
------ ------

                      David Marin, Staff Director
               Rob Borden, Parliamentarian/Senior Counsel
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

   Subcommittee on Criminal Justice, Drug Policy, and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
PATRICK T. McHenry, North Carolina   ELIJAH E. CUMMINGS, Maryland
DAN BURTON, Indiana                  BERNARD SANDERS, Vermont
JOHN L. MICA, Florida                DANNY K. DAVIS, Illinois
GIL GUTKNECHT, Minnesota             DIANE E. WATSON, California
STEVEN C. LaTOURETTE, Ohio           LINDA T. SANCHEZ, California
CHRIS CANNON, Utah                   C.A. DUTCH RUPPERSBERGER, Maryland
CANDICE S. MILLER, Michigan          MAJOR R. OWENS, New York
GINNY BROWN-WAITE, Florida           ELEANOR HOLMES NORTON, District of 
VIRGINIA FOXX, North Carolina            Columbia

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                       Marc Wheat, Staff Director
        Nicholas Coleman, Professional Staff Member and Counsel
                           Malia Holst, Clerk
                     Tony Haywood, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 16, 2006................................     1
Statement of:
    Walters, John P., Director, Office of National Drug Control 
      Policy, Executive Office of the President..................    13
Letters, statements, etc., submitted for the record by:
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................     5
    Walters, John P., Director, Office of National Drug Control 
      Policy, Executive Office of the President, prepared 
      statement of...............................................    17


         THE NATIONAL DRUG CONTROL BUDGET FOR FISCAL YEAR 2007

                              ----------                              


                      THURSDAY, FEBRUARY 16, 2006

                  House of Representatives,
Subcommittee on Criminal Justice, Drug Policy, and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:03 p.m., in 
room 2154, Rayburn House Office Building, Hon. Mark Souder 
(chairman of the subcommittee) presiding.
    Present: Representatives Souder, McHenry, Mica, Foxx, 
Cummings, Davis, and Norton.
    Staff present: Marc Wheat, staff director and chief 
counsel; Nicholas Coleman and Dennis Kilcoyne, professional 
staff members and counsels; Malia Holst, clerk; Tony Haywood, 
minority counsel; and Teresa Coufal, minority assistant clerk.
    Mr. Souder. The subcommittee will come to order. Good 
afternoon. Thank you for coming.
    I should note at the beginning here how pleased we are that 
the President's personal commitment to roll back the scourge of 
drug abuse in this country is indicated by his four references 
to it in the State of the Union address. As he stated, we have 
seen a 19-percent decline in reported drug abuse among the 
Nation's high school students since he took office, and this 
can certainly be traced, to no small extent, to the drug 
control commitment of Congress and the President over years of 
diligent work.
    Leading the administration's drug control effort is the 
Office of National Drug Control Policy [ONDCP]. Congress 
created this office to act as the President's principal advisor 
on drug control policy and program oversight and to lead the 
Nation's effort to combat the use, production, and distribution 
of illegal drugs and all their negative consequences.
    However, we Members of Congress find ourselves growing 
increasingly alarmed with some of the proposals for drug 
control made by the President's appointees and sanctioned by 
ONDCP. The administration's just-released budget request for 
drug control has only fueled our fears.
    To begin, we are deeply disturbed and surprised that the 
budget proposal categorizes drug control as a ``non-Homeland 
Security'' mission. This flatly contradicts the statute that 
established the Department of Homeland Security. Did the ONDCP 
see this coming? And did they fight it?
    We just had another discussion in the Speaker's office 
about this potentially devastating change in budgeting because 
this could impact us far beyond in how we count the drug 
budget.
    Next, what are we to make of the substantial reductions in 
assistance to State and local law enforcement agencies? The 
administration proposes the complete elimination of the Edward 
Byrne Memorial Justice Assistance Grant program, which sustains 
vital drug investigations at the State and local level. The 
President's appointees also seek the elimination of the 
Counterdrug Technology Assessment Center's [CTAC] Technology 
Transfer Program, which helps to develop cutting-edge 
technologies for State and local law enforcement. And they 
propose to set in motion a radical, yet mostly undefined 
restructuring of the High Intensity Drug Trafficking Areas 
[HIDTA] program into an apparently more Federalized, top-down 
program controlled by Washington.
    At first glance, these proposals seem to simply reflect a 
proper concern with excessive Federal subsidization of local 
law enforcement. But while pursuing this national drug control 
strategy, can we forget that it is the State and local agencies 
that make 95 percent of all drug arrests and provide 
indispensable access to intelligence, investigative leads, and 
resources that Federal agencies simply must have? If the 
administration seeks to continue the positive trends in drug 
control, is this the time to be scaling back aid to and 
cooperation with State and local law enforcement?
    We are especially puzzled, too, by the administration's 
lack of a strategy to combat the abuse of methamphetamine. 
Though we were encouraged by the administration's release of a 
Synthetic Drugs Action Plan in October 2004, followed by an 
interim report in April 2005, we are still waiting for a final 
report with concrete recommendations. Why is this? And why did 
the administration provide no help to Congress when it was 
considering the Combat Methamphetamine Epidemic Act that is now 
a part of the PATRIOT Act? In fact, the State Department tried 
to knock out critical parts of this bill, while the New York 
Times reported that the FDA was working behind the scenes to 
block it.
    Why did the Department of Health and Human Services, even 
as Congress was drafting the anti-meth bill, provide money and 
personnel to a meth conference where a keynote address was 
entitled, ``We Don't Need a `War' on Methamphetamine?'' And 
why, if stopping meth is a serious goal, is the administration 
attacking programs like the Byrne grants and HIDTA? Are we 
wrong to be dissatisfied? Shouldn't we expect a broader and 
more effective anti-meth strategy than that?
    Next, we have serious questions about the administration's 
real commitment to drug use prevention programs. ONDCP's just-
released ``National Drug Control Strategy'' again lists 
prevention--stopping abuse before it starts--as one of these 
pillars of drug control, together with treatment and 
enforcement. Yet the administration's budget requests even 
fewer dollars for prevention than last year.
    For instance, the budget request calls for the outright 
elimination of the State grants portion of the Safe and Drug-
Free Schools program, which is the largest prevention program 
we have. And we know that there have been problems with 
accountability and performance measurement, but ONDCP has never 
proposed any reforms or even alternative programs. Why not fire 
the incumbent bureaucrats and reform the program rather than 
kill the program? Why throw the baby out with the bath water?
    ONDCP did propose and implement serious and effective 
reforms to the National Youth Anti-Drug Media Campaign over the 
last few years. The recent reductions in student drug abuse 
vindicate those reforms. Yet every year, this administration 
has reduced its request for the campaign. This year, the 
administration is finally asking for $20 million more than 
Congress appropriated, but that only gets us back to where the 
campaign was 2 years ago. To be a truly effective national 
medica campaign, it must be national in scope. That requires 
more than just administrative reform; it requires adequate 
funding. Where are the dollars for that in this budget?
    Other prevention programs--including the Drug-Free 
Communities program--are also flat-lined or cut in this budget. 
How can the administration claim prevention is one-third of its 
drug control strategy when prevention programs constitute 
merely one-tenth of its drug control budget? While the raw 
dollar amount is not the sole measure of commitment, when it 
gets that low, shouldn't we worry?
    Perhaps the most alarming problem is in the area of transit 
zone interdiction assets. This is especially true of Maritime 
Patrol Aircraft [MPA]. Among these, the most important are the 
P-3 airplanes, which have high operational capabilities and a 
broad array of sensors used in detecting and tracking drug 
smugglers. These aircraft are old and need repair. The Defense 
Department has already pulled its P-3s from drug interdiction 
use, leaving only the Customs and Border Protection P-3s in the 
``transit zone.'' Those Customs and Border Protection airplanes 
won't be able to carry out this mission indefinitely without 
either an overhaul or a replacement aircraft.
    So why, then, does the administration propose to terminate 
the service life extension program, mandated by Congress for 
the P-3s, and spend all of the CBP Air's procurement funds on 
the small helicopters for the Border Patrol? These helicopters 
may be fine for nabbing illegal immigrants, but how can they 
replace the P-3s over the open water in the Caribbean and the 
eastern Pacific?
    In fact, the only MPA improvements we see in the proposed 
budget are for the Coast Guard's C-130's, which even the Coast 
Guard says cannot do the same job as the P-3s. In short, where 
is the plan to repair or replace the P-3s? Within a few years, 
won't we be blind at sea when trying to find the drug 
traffickers?
    I have worked on the drug issue long enough to have 
witnessed what happens with drug abuse when the commitment to 
prevent it flags. This is the kind of effort that requires 
staying relentlessly on the offensive. This means no relaxing 
of our efforts when certain trends are positive and no 
passivity in the face of pressure to divert funds and assets to 
other priorities or agencies. In short, while we have seen some 
progress in recent years, we cannot help but be concerned that 
the progress we see may have plateaued on top of a 
disintegrating anti-drug infrastructure. Atrophy seems to be 
setting in, and when drug use begins to spike again, will the 
Federal Government be able to punch back? Based on funding and 
leadership decisions being made today, how can we not be 
concerned?
    These are serious questions that Congress needs to ask as 
it starts to work on the annual appropriations bills. I would 
like to thank ONDCP Director John Walters for joining us once 
again today to help answer these questions. I am looking 
forward to your testimony and to an extended discussion of drug 
control issues today.
    [The prepared statement of Hon. Mark E. Souder follows:]

    [GRAPHIC] [TIFF OMITTED] T9579.001
    
    [GRAPHIC] [TIFF OMITTED] T9579.002
    
    [GRAPHIC] [TIFF OMITTED] T9579.003
    
    Mr. Souder. I would also like here in my opening statement 
to pay special tribute to Nick Coleman. Today is the last day 
that Nick will be on our staff. He has been counsel to the 
subcommittee. Monday morning he starts work as Assistant U.S. 
Attorney for the District of Columbia. Nick started working for 
the subcommittee in the summer of 2001, about a year and a half 
before Director Walters was confirmed as head of the White 
House Office of National Drug Control Policy. In his tenure for 
the subcommittee, he was responsible for a path-breaking 
report, ``Federal Law Enforcement at the Borders and Ports of 
Entry: Challenges and Solutions,'' the first type of report 
like this that was ever done in Government Reform, and 
certainly out of our subcommittee. It is still used as an 
oversight checklist for making improvements on border security.
    His legislative accomplishments include the reauthorization 
legislation for ONDCP in this Congress, which is finally 
starting to move, and the prior Congress, as well as the Combat 
Methamphetamine Epidemic Act, which we expect will become law 
next month as Congress comes back. It looks like it is going to 
move through the Senate this week as part of the PATRIOT Act 
reauthorization. Nick's advice and imaginative solutions to 
difficult problems have been a great help to me and my 
colleagues, and we are grateful for his nearly 5 years of 
service, and we all wish him well as he continues in a position 
of trust and public service.
    Thank you very much.
    Mr. Cummings.
    Mr. Cummings. Mr. Chairman, thank you very much. I want to 
start off by thanking Nick Coleman for his service. We who sit 
in the Congress so often are the ones who get our names written 
in the Washington Post and we are the ones on Fox and CNN. But 
it is people like Nick that make us look good. But, more 
importantly, it is people like Nick who provide us with the 
kind of information and thoughts and ideas to do the things 
that we do. And so it is interesting to note, Mr. Chairman, 
that he now moves on to another high calling, being as an 
attorney, I think one of the finest things and most important 
things an attorney can do is serve as an Assistant U.S. 
Attorney. A very important job, only the best of the best 
qualify, so I congratulate you and I thank you.
    Mr. Chairman, thank you for holding today's hearing to 
examine the President's proposed drug budget for fiscal year 
2007 and the 2006 National Drug Control Strategy. This hearing 
provides an important opportunity to hear from the Director of 
the National Drug Control Policy and the President's principal 
advisor on drug policy matters concerning the rationale behind 
the President's budgetary decisions in this very critical area.
    As we speak, drug abuse remains the Nation's No. 1 health 
problem, and the destructive impact of drug use, addiction, and 
a violent illegal drug economy continues to be felt in 
neighborhoods and schools throughout our Nation.
    Again, we face the prospect of more than 20,000 American 
lives being taken by illegal drugs. Over the past year, the 
explosive growth of methamphetamine has captured national 
attention as the destructive impact of this devastating drug 
takes its toll on abusers, families of abusers, the social 
fabric of communities where it is used and manufactured, the 
land and property destroyed by clandestine meth labs, and the 
law enforcement and social service agencies forced to grapple 
with these consequences.
    Meanwhile, in cities like my own of Baltimore, more 
traditional killers like heroin and crack cocaine continue to 
stifle potential, steal lives, and erode the quality of life 
for entire communities.
    The President's 2006 strategy hails significant declines in 
overall drug use by youth, as reported by the University of 
Michigan's Monitoring the Future survey. This is very 
encouraging news for which the administration is entitled to 
accept some credit. But we need to consider this sliver of 
progress in context.
    First of all, what the overall decrease reflects is a 
reduction in the use of marijuana, the most widely used drug of 
abuse among youth and adults. Use of other more harmful drugs 
by both youth and adults has remained constant and in some 
cases has increased. Looking at the bigger picture, the 
Substance Abuse and Mental Health Services Administration's 
National Survey on Drug Use and Health indicates that in the 
year 2004, an estimated 19.1 million Americans age 12 or older 
were current illicit drug users, meaning they had used an 
illicit drug during the month prior to the survey interview. 
This estimate represents 7.9 percent of the population age 12 
years old or older. The overall rate of current illicit drug 
use among persons age 12 or older in 2004 was similar to the 
rate in 2003 and 2002.
    Among young adults between the ages of 18 and 25, there 
were no changes in past month use of any drugs between 2003 and 
2004, although there were slight declines between 2002 and 2004 
for marijuana and hallucinogenics.
    For adults age 26 and older, rates of lifetime, past year, 
and past month illicit drug use for adults age 26 or older were 
unchanged between 2003 and 2004. Clearly, more progress needs 
to be made, and our National Drug Control Strategy should focus 
squarely on making that progress.
    We continue to be faced with a shameful gap between the 
number of people needing and seeking treatment and the number 
of people receiving treatment. SAMHSA tells us that in 2003 the 
estimated number of persons age 12 or older needing treatment 
for an alcohol or illicit drug problem was 22.2 million, 9.3 
percent of our total population. An estimated 1.9 million of 
these people, 8.8 percent of the total population and 8.5 
percent of the people who needed treatment, received treatment 
at a specialty facility. Thus, there were 20.3 million persons 
who needed but did not receive treatment at a specialty 
substance abuse facility in 2003.
    As we approach the important task of ensuring that there is 
adequate Federal support for programs to reduce illegal drug 
use and the myriad social and economic problems that stem from 
it, I think it is safe to say that we again have our work cut 
out for us. Unfortunately, Mr. Chairman, the budget we are 
considering today does not make the task any easier.
    The President last week presented to Congress a budget that 
continues a disappointing and accelerating trend toward 
decreased emphasis on domestic demand reduction and law 
enforcement efforts as compared to supply reduction efforts and 
beyond our borders. This is not what we were led to expect from 
this administration. It is what the drug czar assured us would 
not happen on his watch when as a nominee he responded to the 
concerns about this commitment to demand reduction.
    In 2002, President Bush issued his administration's first 
National Drug Control Strategy, citing it as a blueprint for a 
``balanced'' approach to drug control. The three pillars of 
stopping drug use before it starts, healing America's drug 
users, and disrupting the market for illegal drugs were cast as 
co-equal elements of a comprehensive strategy that emphasized 
accountability and proven performance. The 2006 strategy 
repeats this mantra.
    But looking back over the past several years, and 
especially since the President's re-election in 2004, the 
administration's use of the language ``a balance'' has taken on 
more the hollow ring of lip service than the tenor of 
conviction.
    In fiscal year 2001, the Federal Government spent 47 
percent and 53 percent for demand reduction and supply 
reduction, respectively. The President's request for fiscal 
year 2006 proposed just 39 percent for demand reduction and 61 
percent for supply reduction. In the coming fiscal year, the 
President proposes to devote merely 35.5 percent to demand 
reduction and 64.5 percent to supply reduction.
    If the President's budget is enacted, approximately 11 
percent of the fiscal year 2007 drug budget will support 
prevention programs--a 2-percent decline from the fiscal year 
2006 enacted level.
    To make matters worse, it is not at all clear that the 
President's budget decisions have been driven by evidence of 
program effectiveness. Instead, it appears this administration 
simply has a pronounced and increasing bias in favor of 
fighting the drug war primarily through supply reduction 
efforts, and even highly effective domestic enforcement 
programs like the High Intensity Drug Trafficking Areas program 
are targeted for decreases, if not extinction.
    The unfortunate reality is that the President's budget 
request will again force Congress to make some very difficult 
choices. Last year, Congress largely rejected the President's 
proposed decimation of the Safe and Drug-Free Schools State 
grants and Byrne Justice Assistance grants and COPS Meth Hot 
Spots as well as the vexing decision to cut HIDTA by more than 
half and move it to the Justice Department where it would face 
an uncertain future. But restoring funding for those programs 
meant cutting other programs, including the drug court program, 
which is one that I strongly support.
    The administration's less than vigorous advocacy for 
ONDCP's National Youth Anti-Drug Media Campaign meant that 
program, too, lost funding, despite its supposedly strategic 
location in the Office of the Drug Czar.
    Mr. Chairman, I think it is absolutely vital that we 
fortify and not diminish our commitment to expanding our 
children's exposure to effective drug prevention and education 
in school, in the community, and in the media. It is equally 
vital that we support initiatives to close the persistent 
treatment gaps that I described just a moment ago. We know from 
numerous studies that treatment is effective in reducing not 
just drug consumption but also associated joblessness, property 
crime violence, illness, and risky health behaviors--precisely 
the things that cause individual lives to crumble and the 
fabric of entire communities to unravel.
    Regrettably, I have to say that I believe the President's 
efforts to date have focused more on expanding the range of 
providers who can provide treatment than on ensuring that 
treatment is available for all who need and seek it. The 
administration stresses the importance of consumer choice with 
its voucher initiative, but without access, there can be no 
choice other than to feed an untreated addiction.
    It is apparent now that we have failed to provide 
sufficient support for programs that will bring the benefits of 
treatment to individuals and communities in need. When we 
consider that SAMHSA data shows no change between 2002 and 2004 
in the number of persons classified as drug-dependent or in the 
percentage of the population receiving substance abuse 
treatment, I think we have to conclude that we need to do 
better. I regret to say that it is far from clear to me that 
the President's budget proposal puts us on a better course.
    That said, today's hearing, Mr. Chairman, gives us an 
important opportunity to hear directly from the President's 
principal advisor for drug policy matters. It is important that 
we understand both the rationale and the ramifications of the 
President's budgetary decisions before determining whether to 
enact the President's drug control budget. The 2006 strategy 
for the first time claims that supply reduction efforts have 
forced the purity of South American cocaine to drop while the 
price has increased. If this is true and if the administration 
is correct in hailing this is the beginning of a long-term 
trend, then there may be something to be said for continuing 
our international counternarcotics investment, although not at 
the expense of reducing domestic demand. In any case, this is 
an important claim that we should examine closely and very 
carefully.
    To close, Mr. Chairman, it will be up to the appropriators 
in the House and Senate to make the final decision on what drug 
programs are funded and at what level. But as members of the 
only subcommittee in the House with plenary oversight 
jurisdiction of the Federal drug control policy and agencies, 
we have an important role to play in making sure that the 
ramifications of the President's proposal are well understood.
    I commend you for the proactive approach you have taken in 
leading this subcommittee in that effort, and I pledge to 
continue working with you on a bipartisan basis to help ensure 
our Nation's drug control policy adequately and effectively 
addresses the needs of this great Nation.
    And with that, Mr. Chairman, I thank you and I yield back.
    Mr. Souder. Congresswoman Foxx.
    Ms. Foxx. Thank you, Mr. Chairman. I want to thank you for 
holding the hearing and for your strong dedication to reducing 
drug use in our country.
    We are quite concerned with drug use, especially 
methamphetamine, in the 5th District in North Carolina, and I 
share the concerns you expressed in your opening statement. I 
look forward to learning more in this hearing and future 
meetings as to how we can effectively reduce the incidence of 
illegal drug use.
    Thank you.
    Mr. Souder. Thank you.
    Mr. Davis.
    Mr. Davis. Thank you very much, Mr. Chairman, and let me 
also express appreciation to you for holding this hearing. I 
also want to commend both you and Mr. Cummings for the 
tremendous leadership that you both provide in this direction.
    Also, I was pleased to look at the priorities for the 
coming year relative to stopping drug use before it starts 
through education and community action, healing America's drug 
users by getting treatment resources where they are needed, and 
disrupting the market for illegal drugs by attacking the 
economic bases of the drug trade.
    I am particularly interested in priority No. 2 as I have 
been engaged a great deal with the number of people who believe 
that if we could provide treatment for individuals when they 
need it, when they indicate that they are ready for it, when 
they are desirous of having it, that this is the most desirous 
and most effective form of treatment that there is. So I look 
forward as we continue to push for what I call treatment on 
demand, which really means that resources must be made 
available so that individuals don't have to go through long 
periods of waiting, so that there is not the unavailability of 
programs and beds.
    I also want to commend you, Director, for the proactive 
stance that you have taken. I know that I have come into 
contact with you in many places throughout the country, and you 
are indeed carrying the message, and I look forward to this 
hearing and a very productive year of fighting the spread of 
drugs in our country and throughout the world.
    Mr. Souder. Thank you.
    Mr. Mica, do you have any opening statement?
    Mr. Mica. Well, thank you, Mr. Chairman, and thank you for 
holding this hearing to review some of the proposals from the 
administration and the Director of the Office of Drug Control 
Policy.
    I have reviewed a number of the proposed changes, and some 
of them sort of a continuation of trying to eliminate some of 
the bureaucracy, the duplication, the administrative costs and 
overhead in some of these programs, which I think is a very 
worthwhile endeavor by the Director. Sometimes these are not 
popular, and when you have done things for years in sort of a 
rote manner, everyone gets accustomed to them and a lot of 
feathers get ruffled and people have questions.
    I do have some questions about some of the proposed 
changes. I think this will be a good opportunity to air them. I 
think the Director has done an outstanding job in finding new 
approaches, and many of them, as you could see just from the 
statistics, have been successful, and he is to be commended in 
that regard.
    I continue to be concerned about our ability to change 
programs to deal with changing times and the changing new 
challenges that substance abuse unfortunately we find change 
from designer drugs--heroin, crack, meth--to whatever the next 
challenge is, and we have to stay ahead of that.
    So I look forward to his testimony and his comments on the 
specifics he proposes.
    I yield back the balance of my time.
    Mr. Souder. Mr McHenry.
    Mr. McHenry. Thank you, Mr. Chairman, for holding these 
hearings. I certainly appreciate it. And I appreciate the drug 
czar being here.
    You know, I think the key from my district is early warning 
and detection of rising trends. That will help in combating the 
widespread use of drugs among certain populations and in 
certain regions and identify the new trends among drugs.
    The meth epidemic has been one of the largest issues that I 
am dealing with in my district in western North Carolina, and 
the spread of meth from the West all the way to western North 
Carolina is a very large cause for concern both in terms of the 
health risks to society at large and to law enforcement agents 
that are trying to bust these meth labs, to the cost to 
communities, to the overall impact on the lives of those 
addicts. And so, you know, I think there are a number of pilot 
programs that you spoke about last year. I would like to hear 
the ongoing status of that, and I look forward to your comments 
on that, because we have an opportunity here to clamp down on 
this meth epidemic early. And we made huge blunders in the 
past, going to past decades, on new drugs that were created, 
and the Federal Government did not react fast enough, did not 
enable law enforcement to root out the growing epidemic; and 
instead of catching it at the beginning, we are now paying a 
price, an ongoing price, as a Government and as a people.
    And so I certainly appreciate you being here. I look 
forward to your comments, and I appreciate your leadership and 
hard work to protect our families, our children, and our 
country.
    Thank you.
    Mr. Souder. Thank you.
    I ask unanimous consent that all Members have 5 legislative 
days to submit written statements and questions for the hearing 
record and that any answers to written questions provided by 
the witness also be included in the record. Without objection, 
it is so ordered.
    I also ask unanimous consent that all exhibits, documents, 
and other materials referred to by Members and the witnesses 
may be included in the hearing record and that all Members be 
permitted to revise and extend their remarks. Without 
objection, it is so ordered.
    Our first and only panel today is composed of the Honorable 
John Walters, Director of the Office of National Drug Control 
Policy.
    Director Walters, would you please stand for the oath?
    [Witness sworn.]
    Mr. Souder. Once again, thank you for coming today. I 
appreciate our ongoing dialog, this being the most formal part 
of the ongoing dialog, and I look forward to hearing your 
testimony.

STATEMENT OF HON. JOHN P. WALTERS, DIRECTOR, OFFICE OF NATIONAL 
     DRUG CONTROL POLICY, EXECUTIVE OFFICE OF THE PRESIDENT

    Mr. Walters. Thank you, Mr. Chairman, Ranking Member 
Cummings, Mr. Davis, Ms. Foxx, Mr. Mica, and Mr. McHenry. I 
appreciate your comments.
    If there isn't any objection, I will ask that my prepared 
statement be put in the record, I will offer a brief summary, 
and then I will be happy to take your questions and touch on 
some of the subjects that you raised in opening comments.
    I am obviously pleased to be before you today in support of 
the fiscal year 2007 national drug control budget and the 2006 
strategy. I appreciate this committee's longstanding support 
for the President's National Drug Control Strategy, and I am 
pleased to report to you today that through our work together, 
we have seen a 19-percent reduction in teenage drug use since 
the year 2000. As you know, the way drug use, the way substance 
abuse of all types start in this country is with our kids. If 
we maintain reductions in that area, the path toward addiction 
will be less, and we are trying in this strategy to address 
both prevention and treatment, as I will touch on.
    With Congress' support, the President's fiscal year 2007 
drug budget and its key programs, such as the National Youth 
Anti-Drug Media Campaign and the Andean Counterdrug Initiative, 
the President's 5-year goal of reducing youth drug use 25 
percent we believe can be accomplished. Again, my written 
testimony discusses many of these programs in detail. Let me 
just offer an overview of the budget and just several points.
    The President's fiscal year 2007 budget provides 
significant resources for overall reductions in use. In total, 
the drug budget for the 2007 fiscal year is $12.7 billion, an 
increase of $109.1 million, or 1 percent, over fiscal year 2006 
enacted. That is the enacted level of $12.5 billion.
    In a time when we are trying to control domestic spending 
to maintain economic growth, where most of the programs are 
lodged is in domestic discretionary spending, as you know, in 
this budget we have increased our level and maintained 
effective programs, we believe, in the proposals that we have 
made.
    The budget highlights I would concentrate on are programs 
that we know work in the budgets of the Departments of Health 
and Human Services, Education, Justice, and ONDCP.
    The Department of Health and Human Services proposes $98.2 
million for the Access to Recovery program, to level-fund that 
program but to extend its capability to help reform the 
treatment system to reach more people. I agree with Ranking 
Member Cummings. The problem we have is we need to reach more 
people, and part of that is not just when they want to come, 
but because we know that substance abuse involves a disease 
that includes denial, we need to help to reach them, and we 
have tried to have a number of efforts to do that as well.
    This budget will also continue research on methamphetamine 
addiction by proposing $41.6 million in the National Institute 
on Drug Abuse to develop ways to better treat methamphetamine 
addiction.
    We will be giving youth another way to say no to drugs as 
well. The Department of Education proposes $15 million for 
student drug testing, a $4.6 million increase over the fiscal 
year 2006 level. As this committee knows, this is a measure 
which cannot be used to punish, must be used to help get those 
who are found beginning their drug use to stop and to get those 
who have serious problems with substance abuse the treatment 
they need in a confidential manner. It allows us to use the 
public health measures that have changed the face of childhood 
disease in many other dimensions and bring them to this 
disease.
    According to a study done by the National Institute of 
Justice, within 1 year of drug court graduation, only 16.4 
percent of drug court graduates have been rearrested or charged 
with a felony offense. We are proposing to increase that 
program. We are disappointed that Congress has not met the 
request for the last several years. We believe it is the right 
thing to do. Many jurisdictions do. Drug courts are growing 
dramatically. They need to grow more. The need is greater than 
the capacity here. It is an important adjunct to what we are 
doing on treatment and law enforcement.
    At ONDCP, the budget, as was pointed out, proposes $120 
million for the Youth Anti-Drug Media Campaign. It increases 
$21 million over the fiscal year 2006 funding level. Chairman 
Souder and this committee have been very supportive of the 
campaign, and I look forward to working with you that this year 
we make sure the campaign gets the money requested.
    Funding for supply reduction in the Departments of Homeland 
Security, Justice, State, Treasury, and Defense will support 
operations targeted on the economic basis of the drug trade, 
domestic and international sources of illegal drugs, and 
trafficking groups to and within the United States. The drug 
control budget remains committed to our allies in the Western 
Hemisphere. The State Department proposes $721.5 million for 
the Andean Counterdrug Initiative. The State Department also 
proposes $297.4 million for providing Afghan counterdrug 
support. This is an increase of $151.7 million to assist 
Afghanistan by supporting drug enforcement and interdiction 
programs, public diplomacy, drug demand reduction, and drug 
control capacity building in their judicial sector.
    Drug traffickers are finding new ways to bring products to 
our country, and we must also try to stop those. The Department 
of Homeland Security has announced the Secure Border 
Initiative. A part of that proposal, $152.4 million for Custom 
and Border Protection, will be a part of our drug control 
effort.
    We have also made one change referred to in your opening 
remarks in the budget. We proposed the movement of the High 
Intensity Drug Trafficking Area program this year again to the 
Department of Justice. We have maintained funding at the base 
level of the program. The program remains as is, and recently 
the Attorney General and myself sent a letter to the chairman 
stating our intention to maintain the structure of the program 
as it currently exists. But, again, we believe it can be more 
effectively integrated into our overall law enforcement efforts 
by being in a law enforcement agency and better integrate, not 
denigrate, the cooperation between State and local law 
enforcement.
    In conclusion, I would like to take an opportunity to do 
something we do not do enough in Government, and that is to 
thank the people who are our partners, who actually are the 
ones who do the work in this area. There are a few of them here 
today. I would like to recognize one who is not here, Judge 
Karen Freeman-Wilson, who is chief executive officer of the 
National Association of Drug Court Professionals. She had 
intended to be here but has been hospitalized, and I am sure 
that all of our thoughts and prayers go for her quick recovery. 
But she has been a dynamic leader in helping to train and 
expand the reach of drug courts.
    I would also like to recognize who is here: Carrie Garnett, 
executive director of the Drug-Free Community Coalition, One 
Voice for Volusia County. Carrie's coalition is also featured 
in this year's Drug Control Strategy; also, Dr. Jennifer Smith, 
Program Director for the Illinois Screening Brief Inventory and 
Referral to Treatment program; Christina Steffner, principal of 
Hackettown High School and a recipient of the student drug-
testing grant; Charles Garland, Acting U.S. Interdiction 
Coordinator; and Roy Bostock of the Partnership for Drug-Free 
America. He wasn't able to make it today, but Kristi Rowe of 
PDFA is here with us, of course, our private sector partner in 
the Youth Anti-Drug Media Campaign.
    These are a small number of the people and the people that 
they lead and work with who help fewer kids use drugs, help 
take those who are involved and get them back into a healthier 
life, and to take those who have suffered or those who wish to 
victimize others and stop them. I don't do that. Most of us in 
Washington don't do that. The best we can do is to be good 
partners in helping them do their job better, and I wanted to 
recognize them because they are the face behind the budget, 
behind the policy, behind the forces that are making this 
country safer and our children safer. On behalf of the many 
people they represent, I thought it would be important, and I 
am sure you join me in thanking them and recognizing that they 
are the backbone of where we are going to go from here. But we 
could not ask for better partners.
    Thank you, Mr. Chairman. I will be happy to take questions.
    [The prepared statement of Mr. Walters follows:]

    [GRAPHIC] [TIFF OMITTED] T9579.004
    
    [GRAPHIC] [TIFF OMITTED] T9579.005
    
    [GRAPHIC] [TIFF OMITTED] T9579.006
    
    [GRAPHIC] [TIFF OMITTED] T9579.007
    
    [GRAPHIC] [TIFF OMITTED] T9579.008
    
    [GRAPHIC] [TIFF OMITTED] T9579.009
    
    [GRAPHIC] [TIFF OMITTED] T9579.010
    
    [GRAPHIC] [TIFF OMITTED] T9579.011
    
    [GRAPHIC] [TIFF OMITTED] T9579.012
    
    [GRAPHIC] [TIFF OMITTED] T9579.013
    
    [GRAPHIC] [TIFF OMITTED] T9579.014
    
    [GRAPHIC] [TIFF OMITTED] T9579.015
    
    [GRAPHIC] [TIFF OMITTED] T9579.016
    
    [GRAPHIC] [TIFF OMITTED] T9579.017
    
    [GRAPHIC] [TIFF OMITTED] T9579.018
    
    [GRAPHIC] [TIFF OMITTED] T9579.019
    
    [GRAPHIC] [TIFF OMITTED] T9579.020
    
    Mr. Souder. Thank you, and we certainly do agree with 
honoring and respecting both the individuals here and them as 
representatives of the whole groups of people in similar 
communities and organizations, because it is at the front lines 
where the battle is occurring, just like in the war on 
terrorism and everything else. It is a battle, block by block, 
street by street, person by person. It is not some kind of 
hypothetical. We may provide some air cover, but it has to be 
won heart by heart, and thank you all for your efforts.
    What I think I would like to do that is a little different 
is clearly, depending on the questioning today, I want to do 
some extended detailed questioning on HIDTA, but we have been 
arguing about the HIDTA change and, quite frankly, my 
understanding is it is still absolutely 100 percent unanimous 
that every HIDTA director opposes this. At a press conference 
the other day, I think six or seven U.S. Senators said it will 
not happen, including Senators Hatch and DeWine and Biden. In 
the House, the key players on both sides have said it is not 
going to happen. I would like to probe it further, but I 
basically view that as a dead deal and an unnecessary war that 
has been brought on by the administration. Instead of helping, 
it is getting the anti-drug community counter being able to 
work together.
    But I have a couple of particular questions. I would like 
to group these. I raise some in the broader sense, but I would 
like to hear your response at the beginning here, and then we 
can move through. And if you want to just take like a note 
reminder of each one--honestly this is not a suck-up point. You 
have a brilliant memory, and you can do fine in here. But I am 
going to come at a couple of them that one or two may be a 
little bit of a curve.
    Mr. Walters. Short-term memory, you know what that is a 
sign of, but go ahead.
    Mr. Souder. In prevention, which is one of your pillars, 
this is the 5th straight year you have certified funding as a 
decline, and it is the only area in the entire drug budget that 
has been a decline. If you could address that question.
    The second one relates to--you mentioned Mr. Garland, the 
acting USIC coordinator. How much of ONDCP's budget request 
would go toward the USIC position? And what does it pay for? 
That is a more technical question.
    A third more technical question is: We were very disturbed, 
as we are trying to move the ONDCP reauthorization bill, that 
based on contacts, it is our understanding that you had 
supported the Dawson Family Community Protection Act that Mr. 
Cummings introduced and I have sponsored with him and that all 
indications are you had expressed support, yet your staff told 
another congressional committee that you oppose that provision 
or have concerns about it, and I wonder if you still support 
that provision and would withdraw that opposition to 
specifically the Judiciary Committee.
    And then, fourth--and I am just baffled about where that 
came from, that the fourth thing is that in the Homeland 
Security, we were blindsided with this huge category change. 
Chairman Lungren, myself, Republicans and Democrats are 
furious, as is the leadership, because this--doesn't this 
affect the Coast Guard--that is what we first thought--but 
taking the narcotics outside of the Homeland Security mission, 
which is in direct contradiction to the law creating Homeland 
Security. It was an organic definition that narcotics were a 
part of Homeland Security. It separates out the part of the 
budget and in the out-years the budget for Homeland Security 
goes up and for non-Homeland Security things in the Coast Guard 
and elsewhere goes down.
    Did you certify that? Who proposed this change? Did your 
staff review this? Have you looked at the Coast Guard 
interdiction budget? How does this work in the different 
agencies? Because you are supposed to be our protector. It 
shouldn't be caught in doing some staff oversight, and I would 
like to know what you know about the track history and also 
your office's response to that.
    So I think that was four good start questions.
    Mr. Walters. I will take them in order. Let me start with 
the general premise. Maybe we have a different view of what I 
am supposed to do. You are the authorizers. I actually have to 
try to carry that out. I do not view my job as being a defender 
of dollars. I am defending results, and I try to apply dollars 
against where I think we can get results. And obviously we all 
want to use dollars effectively. In some of these areas, we do 
not have a good and effective vehicle, and so then it is my job 
to make the tough decision about where we can provide dollars. 
I also have to make judgments, as well as other parts of the 
executive branch, about what dollars we actually think we can 
get. In a tight budget environment, we are trying to propose 
things that we think are reasonable and we have a reasonable 
likelihood of being able to secure. We have not always been 
successful in critical areas, as you know as well as I. And so 
we are trying to also be prudent in where we act within some 
level of judgment.
    On overall prevention, again, if all you want to look at is 
the investigation we are making work, I will point out that not 
in a decade has teenage drug use gone down as much as it has in 
the last 4 years. The only thing that matters in my judgment 
is: Is the drug problem getting smaller in the United States? 
Twice the budget that has things going level or up is a waste, 
no matter how well intentioned it is. And if we can do it more 
efficiently, I will do it more efficiently.
    Now, I am aware we cannot make bricks without straw, but, 
again, I would point out that I think anybody who has worked at 
this for a long period of time--Mr. Cummings referred to the 
initial signs we are seeing of the availability of heroin and 
cocaine in the United States, the first time in many, many 
years, constricting. We talked about teenage drug use. We 
obviously need to work on the area of treatment of addicts and 
levels of adult drug use.
    But I think if you look across the board and look at the 
forest, it has been a long time since as many indicators on 
supply and demand have been going in the right direction. I 
fully agree with the statements that several of you made. Our 
problem is follow-through. We need to be able to follow 
through. But if we are going to be able to follow through in 
this environment, where we are not going to have unlimited 
discretionary spending, we must make hard choices.
    Now, we will disagree on some of those. I regret that 
sometimes the disagreement with us and people on the outside 
seems to suggest motive and character flaws. I believe that is 
not helpful to anybody. But I will say that the hard part of 
this is to say what is working and make an argument for it even 
when you know people do not want to hear it because you need to 
try to see if that argument can begin to have traction. We do 
not win all arguments, but I think my job is not to be popular. 
My job is to try to help make the drug problem smaller. That is 
what I understand it to be. I have no intention of running for 
office. I have no intention of being a celebrity after this. I 
want to go back to my private life. But while I am here, I am 
willing to make every tough decision and be responsible for it. 
And I do not expect to win every one of those arguments, but I 
will not be scared away from making them. I think the last 
couple years have shown that, if I needed to.
    On the prevention side, we disagree about the Safe and 
Drug-Free Schools program. I have worked with you for a while 
on this. I was at the Department of Education during the Reagan 
administration when the precursor of this program first came 
into being. I actually walked the regs through for the first 
awards of this.
    The program has become a very large block grant program 
that does many things, some good things some places, some, as 
you have pointed out, wasteful and unaccountable things in 
others. We have tried to work with other committees of 
jurisdiction here. We have tried to work with appropriators. 
There is not a consensus to change the ``flexibility,'' which 
also creates problems, we think, of management. In a tight 
budget environment, I do not believe it makes the necessary 
contribution to justify the funding request.
    I recognize Congress disagreed with us last year. I 
recognize it may disagree with us this year. Its arguments did 
not convince me that the program is not in an accountable form, 
or the administration. We, therefore, called it as we saw it.
    We are trying to get this year the money for a program that 
we do think works and I know you think works, which is the 
Youth Anti-Drug Media Campaign. Unfortunately, the cuts that 
Congress made to our request last year and the year before and 
the year before that and the year before that have this program 
at a level now where we cannot do 12-month-a-year programming 
for parents. We have to cut out the ads for specific targeted 
minority groups and special populations because we do not have 
the resources to create and to target that. We are still trying 
to maintain weight on young people because it is working, and 
the evaluation and the consequences of the surveys we see show 
that those messages are working and driving down drug use.
    We for this year, for the first time, asked for more than 
Congress gave us because we think the cuts are extremely unwise 
and detrimental. I know you have helped try to work on this, 
and the rest of your colleagues up here said no. I ask you to 
make another run with us at the battle because we need this 
money.
    On the USIC position, I don't know exactly how many dollars 
Mr. Garland gets paid or his permanent successor will get paid. 
But part of what we have been able to do in----
    Mr. Souder. In ONDCP dollars.
    Mr. Walters. In ONDCP dollars? We have in the past--I will 
have to get you the precise number. We have provided some money 
for some so-called blue force analysts, I believe, that are a 
part of that office.
    Mr. Souder. It is funded through ONDCP?
    Mr. Walters. No, I don't--well, again, I want to be clear, 
and let me provide a written statement for the record so I do 
not have any confusion about this. But as you know, there was 
an employee in my office that was double-hatted in the earlier 
version of this as the USIC coordinator. We, I believe, 
continue to pay his salary, but that was a unique situation of 
that individual. But we will give you where the salary comes 
from and where has come from in detail.
    But this is very critical, we believe, to allowing us to 
continue the effort to make intelligence and interdiction work. 
And I don't think it is a trivial matter because what you see 
in the drug strategy is historic seizures that are helping to 
change the availability of drugs on the street. Why does that 
make a difference? Because when there are less drugs, more 
people who have addiction will seek treatment, seek 
detoxification. It will be expensive. There is a barrier to 
price here as well for people coming into the market. For 
heroin and, more importantly, for cocaine that still is 
ravaging parts of our country, as I don't need to tell the 
members of this committee, this is a change that we can really 
hopefully be able to drive with the unique opportunities we 
have both in Latin America and in interdiction technology.
    So USIC is an important part of what we do and has 
provided, with the other agencies--Homeland Security, Defense, 
and Justice--unique power to this. Before, it was we don't 
really make much difference, we kind of have a cost of doing 
business. Today we break the ability of the business 
potentially with the follow-through we hope to be able to 
continue in this program.
    I will go back and double-check. It is hard for me to 
respond when somebody says they heard somebody else say I said 
this. I will be happy to go back and check and see if somebody 
has, without my knowing it, changed the support for the Dawson 
Family Protection Act.
    Mr. Souder. Actually, there was a memo of four objections 
to our ONDCP reauthorization from your office, and it listed 
this as one of them.
    Mr. Walters. OK. I wasn't aware of this in advance. I will 
go back and check, and we will make sure we get this 
straightened out.
    In terms of the Department of Homeland Security, I will 
confess I am not able to tell you whether we have read the law. 
You have been more involved in writing the law than I have, but 
I also am aware that sometimes Congress and the executive 
branch have a different view of how the law is read through, 
you know, no knavishness but through some different idea or 
principle. So I cannot comment on that.
    What I can comment on is this budget maintains support for 
DHS agencies to make critical contributions, domestic 
interdiction and foreign. It will sustain and extend the 
progress we have made, in my judgment. It will--and the budgets 
that are there, no matter what you classify this part of 
Homeland Security, those budgets are important and critical, 
but I believe they will sustain the effort that we need to 
have----
    Mr. Souder. The bottom line is you don't care where it is 
classified.
    Mr. Walters. Well, I care whether we follow the law always, 
but----
    Mr. Souder. Yes, that is----
    Mr. Walters. But I care most of all----
    Mr. Souder. You don't see it as significant that they would 
pull it out from Homeland Security.
    Mr. Walters. I understand that there are expectations of 
increase in budgets that are categorized Homeland Security. It 
does not prevent us from having increases in budgets that are 
not categorized Homeland Security. I recognize there is an 
implicit view that these will be secondary priorities.
    But I would say in the budgets that I looked at and worked 
on and worked with OMB and Homeland Security on, we made sure 
the money for necessary functions is there. And, in addition, I 
have met with the CBP Acting Director and the new head of the 
Air Wing, and they made commitments to me to maintain at last 
year's level or above. Long-range maritime patrol aircraft is 
one of the critical items that I know you are concerned about.
    Mr. Souder. Before yielding to Mr. Cummings, I just want to 
make a couple of brief comments.
    First off, you can't have it both ways. You can't, on the 
one hand, say what we're doing currently has lowered drug 
abuse, and then say that what we are doing currently didn't 
lower drug abuse. In other words, Safe and Drug-Free Schools 
has continued to be funded in spite of the administration 
trying to wipe it out. The Byrne grants continue to be funded 
in spite of the administration trying to wipe them out. The 
HIDTA program didn't change in spite of the administration's 
efforts to move it, and the Meth Hot Spots program was not 
wiped out in spite of the administration's efforts to do it. 
Some of the credit, at least some of the credit here--may be 
because your budget was rejected, not your budget accepted. We 
have a difference of opinion on that, but it is not kind of 
automatic evidence that your strategy worked, because we did 
not follow the strategy.
    The one thing that I will agree on is the National Ad 
Campaign did contribute to moving the numbers in the high 
schools. But so may have Safe and Drug-Free Schools and 
everything. The things work in combination. You just measured 
the Ad Campaign as one of the ways to test attitudes, but 
attitudes are not the only thing that impacts getting caught. 
Some law enforcement increase, knowing that they are there, 
improved treatment programs, what other things came into the 
community, changed cultural values. You full well know from 
your extensive writings and experience the Ad Campaign is 
merely one thing.
    Now, to the Ad Campaign, there is not going to be an 
increase of funds until you show some flexibility to work with 
methamphetamine attack. The Congress would have plussed it up. 
We can't do it without some cooperation here. You have heard in 
opening statements, you have heard repeatedly from Congress, 
they want to see a clear methamphetamine strategy, and that 
includes in the National Ad Campaign. And your dollars are not 
going to go up until you start to reflect a little bit--yes, 
you are not running for office. I understand you are not 
running for office. But you know what? We are listening to the 
grass roots and what they are hearing, and you are not 
listening to your own grass roots and your own agency in 
addition to people who basically had this come up from the 
grass roots to us, who are saying, ``We have a problem in our 
communities. We want you to address it, and we want to see that 
you understand it, partly in the National Ad Campaign.'' 
Marijuana is the gateway drug. You know that we have worked 
together in trying to battle marijuana, but we cannot sustain 
the National Ad Campaign without some help and some changes 
here, and it is not because I certainly don't work for George 
Soros, these other Members here don't work for George Soros. 
Yes, he does not like the marijuana campaign. I am willing to 
fight him. But we are not--I am just telling you flat out. We 
are not going to make it unless there are some adjustments in 
that.
    I am also just disappointed, quite frankly, that the 
creation of your office was to be an advocate to make sure that 
we had a stability of understanding the battle in the war on 
drugs, and that includes when the Department of Homeland 
Security was created, they sucked in more people that were 
critical in that battle--the Border Patrol, the Customs, the 
Coast Guard. And unless we are ever vigilant all the time, they 
are going to be diverted, just like the FBI does from time to 
time, into whatever the current crisis is. And as I pointed out 
in my opening statement, if we lose P-3s and get little 
helicopters and all of a sudden they are doing immigration 
stuff, we will pick up some drugs with it, but we are not going 
to get the 100-ton loads, we are going to get the backpack 
loads. And we are going to get it kind of as an accident of 
other things we are doing on the border. And you have to become 
more engaged even though it is hard. At the Cabinet table, you 
are not Chertoff and you are not Gonzales, and we all 
understand that. But we created a separate Cabinet position to 
kind of be the lone complainer at the table: Remember 
narcotics? Remember narcotics? You change this thing, and it 
could hurt narcotics. That is a big part of your job, is a 
bully pulpit, not only outside but inside the administration. 
And that is some of the frustration on something like the 
Department of Homeland Security.
    Mr. Walters. Let me just respond to two points you raised. 
On the Youth Anti-Drug Media Campaign and methamphetamine, 
while overall teenage drug use is down 19 percent, teenage 
methamphetamine use is down 36 percent.
    Mr. Souder. Do you know what we understand? That the 
methamphetamine problem has never been and is not a youth 
thing. That is not an answer.
    Mr. Walters. Well, then, my only question back to you is, 
since you write the authorization for these things, why write 
an authorization that has the Youth Anti-Drug Media Campaign 
that makes it limited in what I can do? I have made ads. We 
have cooperated and we have released those ads last November, 
and we are trying to provide those in more areas.
    Second, on the issue of interdiction, yes, believe me, I 
understand the need to be vigilant. I understand the tendency 
for a number of things to put--not willful ignorance of this, 
but just the fact that there are so many pressures on this--my 
office exists because we could not create a Department of Drug 
Control when this was considered in the late 1980's. There were 
too many far-flung agencies to pull those units out of the 
Department of Defense or HHS or Education and put them all into 
one department.
    And so my office operates as a kind of overall management 
structure like an OMB and a policy organization office for drug 
control to make sure that the individual Cabinet offices and 
agencies make the parts fit together, even when those parts in 
their own view of their own department are not as high a 
priority as they are for the overall anti-drug effort.
    What I am taking issue with is we have not failed on that. 
Every year the number of seizures have hit a new historic 
level, a significantly higher new historic level, because we 
have the system working, because people like Mr. Garland, 
because people like the Coast Guard Commandant, because people 
in the Department of Defense and the Department of Justice are 
making this work, under difficult conditions, as you know. You 
have visited some of these sites. And it is not true, in my 
judgment--I recognize you may have a different one--that we 
have a threat of those assets falling away. I know there has 
been a dispute about this, but I also think we need to sit down 
and go through that dispute carefully.
    Put up the slide about long-range Maritime Patrol Aircraft, 
because that has been an issue that I have spent a lot of time 
talking to Members and others about as a result of the GAO 
report. That report, I believe, is somewhat confusing. I won't 
say what the cause of that is.
    These are the levels of Maritime Patrol Aircraft. It is 
true that the mix of particular kinds of aircraft--C-130's, P-
3s, United Kingdom Nimrods--has changed. The reason it has 
changed is because, as you know, with the P-3 we developed an 
unexpected, in the Navy P-3s, mechanical problem in the super-
structure of the aircraft, which has limited their life. 
Through a lot of hard work, the other agencies, including our 
foreign allies, have supplied additional aircraft to meet that 
need. That is why we have over 250 metric tons of cocaine that 
did not get to the streets in the United States last year 
through these efforts.
    Now, do we have to be vigilant? Are we concerned? Are we 
stretched in these environments? If the threat level for 
homeland security went up, would we pull P-3s from DHS back to 
Air Cap over our major cities? Yes, we would, and that would be 
the responsible thing to do.
    But with the exigencies that we can control, we believe we 
have the ability to maintain the effort within the boundaries 
of both responsible budgeting and responsible drug control. And 
it is not because people are not paying attention around the 
Cabinet table. They are making serious efforts. I meet 
regularly with my Cabinet colleagues. I meet regularly with the 
Attorney General and the Secretary of Homeland Security to make 
sure issues between these agencies work. I meet regularly both 
with members of key agencies of this Government, outside of 
Washington and inside of Washington, and foreign governments to 
make sure these work. And a lot of other people do, too. It is 
not just me. You and some of your colleagues have helped to 
meet with foreign leaders and work with others to make this 
work.
    All I would urge you is in the effort to try to make sure 
that it works and to make sure that we continue with the 
progress, not to become so critical of things that are working, 
because that does not help those people that do the job.
    Mr. Souder. With all due respect, don't make me laugh. With 
all due respect, that chart, anybody who goes out in the 
field--and Mr. Mica and I have dealt with this for years. What 
has increasingly happened here is you on your watch and this 
administration's watch, because we haven't replaced those 
assets and because as we didn't get new P-3s, as the Defense 
Department pulled out, we pushed the cycling up, that doesn't 
count down time. It doesn't count the extra push what they are 
telling us on the ground. These things are going to fall apart. 
The next President is going to have a fallen-apart interdiction 
effort because you haven't put in the budgets or pushed in the 
budgets for a proper replacement pattern as we age out many 
time Vietnam era and other type things, and we have pushed them 
to the limits. They are dangerous to get up in. We would not 
certify them for our regular military. Our drug guys are 
stitching this stuff together to try to keep them in the air, 
to try to keep these planes working. And you are telling me 
that because they have stitched them together, that is a 
strategy for air interdiction? And that even then they get out 
there and they have to pull back because somebody thinks 
something may be coming into a harbor because they are multi-
tasked. And then the Department of Homeland Security, 
furthermore, in this year's budget is going to yank those out--
which I pointed out in my statement--that you are putting up in 
the chart which are already deteriorating type things.
    This is just really frustrating. You did give us a 
suggestion that maybe we will change the name of the Anti-Drug 
Youth Campaign and tie your hands a little bit if we are going 
to fund this, we will just--because I just am exasperated. 
Anyway, I need to yield to Mr. Cummings.
    Mr. Mica. Mr. Chairman.
    Mr. Souder. You responded twice. I had the statement. I 
need to yield to Mr. Cummings.
    Mr. Mica. Mr. Chairman.
    Mr. Souder. Oh, I am sorry. I thought----
    Mr. Mica. May I submit my questions for the record and if 
the Director would respond to those.
    Mr. Souder. Yes.
    Mr. Mica. I am not able to stay. And I am sorry to 
interrupt the love fest, but I----
    Mr. Souder. We can laugh.
    Mr. Mica. Thank you, Mr. Chairman.
    Mr. Souder. Thank you.
    Mr. Cummings.
    Mr. Cummings. Thank you very much.
    Director, I am glad to have you back, and I just want to 
ask a few questions.
    Former Representative Bill Gray in a speech not long ago 
was talking about the Congressional Black Caucus, and he was 
saying--he said the words, he said, ``You may not win every 
battle, but you set the trend.'' And I have thought about those 
words quite a bit, and particularly with some of the things 
that you have said just this afternoon when you said that you 
do not necessarily expect the budget priorities the way you 
have laid them out necessarily to go into effect, but you are 
trying to, I guess, set a--cause, I guess, the Congress to 
think and maybe at some point we will drift toward where you 
are. Is that a fair statement? I mean, I don't want to put 
words in your mouth, but I just----
    Mr. Walters. Well, I want to be clear. If I could get the 
budget in the form it is requested, I would like it in the form 
it is requested.
    Mr. Cummings. I understand that.
    Mr. Walters. But I respect the obvious prerogative of 
Congress and other people that have different views about where 
we might put priorities or levels of funding, sure.
    Mr. Cummings. And on that level, Mr. Souder and I just the 
other day had occasion to go into the Convention Center and to 
be with the CADCA people. And I got to tell you that--and I 
know Mr. Souder will agree with me. Those are some of the--and 
I am sure you agree with me. Those are some of the most caring, 
courageous, unselfish people that I have ever met. As a matter 
of fact, a lot of them took their--came to Washington on their 
own money because they simply wanted to make a difference.
    I just want you to help explain to us what is happening 
with the whole drug-free communities program. There seems to be 
at least a reduction, I think, in the funding for the training 
portion, which I think makes a lot of sense--I mean, it does 
not make any sense to reduce it, but I am just trying to figure 
out what is the thinking when we have people who want to--you 
know, people--as you well know, people feel so trapped in their 
neighborhoods and they are figuring this saying, look, you 
know, I will volunteer, I will be the guinea pig, I will go out 
there, I will put my money on the line, I will put my efforts 
on the line; Government, just help me a little bit, if you 
could just help me a little bit, we will try to do the rest 
because we are Americans, and we believe in the all-American 
way. We know Government cannot do everything.
    But it just seems to me that those are the kinds of 
programs--and I have heard you talk before, and the implication 
was that, well, we have--they are nice little programs for us 
lawmakers, it makes our constituents feel good. I am not trying 
to put words in your mouth, but it is not about that. It is 
about empowering people so that they can--you know, they are 
not asking for the big Government funds. I mean, this is not a 
lot of money. When you consider all that they do to prevent 
drugs from coming into, you know, their neighborhoods and 
whatever.
    And so I just want to know what is the thinking on the 
Drug-Free Communities, what you are doing with that, and how do 
we at the same time make sure that we, first of all, encourage 
folks to continue to try to take control of their neighborhoods 
and make sure that their families stay off of drugs. When we 
talk about--you know, there has been this whole issue of morals 
and they say that the Democrats lost the election because of 
morals, immoral concerns and all this kind of thing. But, you 
know, I am convinced that argument goes to--and Mr. Souder and 
I saw this when we dealt with the whole steroid question. 
People want their children to grow up in a safe and healthy 
environment. That is what a lot of this is all about, I mean, 
if you really think about it.
    So here we have these people who are saying, you know, I am 
going to do my part. But are we doing all our part to take some 
of their tax dollars and then allow them to do the little 
things that they do so that--and those tax dollars, it seems to 
me that it is a phenomenal leverage of our tax dollars.
    I am just wondering if we--do you believe that in this 
budget we are doing all that we can to help them? And if we are 
not, why aren't we?
    Mr. Walters. Thanks for that. I appreciate your raising 
this because I think over the last year, one area of painful 
conflict for me has been some of the issues around the Safe and 
Drug-Free Schools program over the last year.
    Let me be clear. I like this program. I support this 
program. I supported an earlier version of this program, which 
we created when I served in the President's father's 
administration in this office that was modeled on the original 
grant program by Robert Wood Johnson, the Fighting Back 
program. We created the first version of this that was 
subsequently made in the current form in my office.
    While I have been here, the President has kept his 
commitment to double funding for this program, and we have 
doubled the number of community coalitions while I have been 
here to over 700.
    On the first part, the issue you made about the institute, 
yes, these are $100,000 grants a year, as you know, renewable 
for up to 5 years, and individual coalitions can then apply for 
another 5 years of funding. They are a small amount of money, 
and it is not about, I agree with you, whether it helps, you 
know, as much as--you know, we are not averse to helping 
elected officials show that they are representing their 
community and bringing people back part of their tax dollar to 
help them. That is not what it is about. It is about the fact 
that most of the money we spend and you appropriate, of course, 
goes for treatment and prevention and law enforcement that is 
done at the local community level. We know that a balanced 
strategy is not just something we put in the White House 
report. It has to be implemented in communities. And this 
allows community leaders to come together, many of which do not 
naturally associate. It is not just the police, it is not just 
the public health members, it is not just the educators, it is 
not just the Government officials. It also requires private 
citizens, and it allows them a small amount of money to 
hopefully take the resources that they are contributing and we 
are contributing and make them have maximum effect. That is 
enormously important, and we are trying to support that.
    On the issue of the institute per se, this was added, as 
you may know, a couple years ago as a training feature. The 
organization you mentioned said we seek this, we can fund it, 
and you give us startup money, and we will get private money 
and keep it going. That is not what has happened. The task has 
been to continue to fund it and to fund it with another $1 
million.
    Now, is training a beneficial and leverageable thing? Yes. 
But in this case, remember, what I am making a decision about 
is $1 million is 10 community coalitions. Now, given the fact 
that it is started up, there was a commitment to raise private 
money. I think there is support here for this. I think that 
tradeoff is something we ought to give to 10 more communities. 
I recognize other people will differ. I recognize CADCA has a 
different view. But, again, given what happened here, I think 
that makes sense. And it is not detrimental to community 
coalitions. In fact, it increases the number of actual 
coalitions. We fund mentoring coalitions that also help train 
other coalitions here. So we are not killing the transmission 
of knowledge. We are trying to make it as effective with the 
dollars we have.
    Again, as you may know--and as I know other members of the 
committee do; I have talked to both of you in a separate 
meeting. There has been some concern about at the field's 
request we moved the administration of this program from the 
Department of Justice Juvenile Justice Office to HHS, the 
Prevention Office of SAMHSA. In the course of that, we were 
asked by SAMHSA to review the existing transferred applications 
to make sure that they were abiding by the original grant for 
the purposes of their taking responsibility for administration. 
That was not a chairman review. It was an eligibility review.
    In the course of that, of roughly 600 applicants, 62 were 
found not to be in compliance and were not continued in their 
funding. We have offered, as I have made to both of you, 
technical assistance to allow them to come back in and compete 
to be successful. We are now in the process of again writing 
each applicant with the specific reasons why they failed, allow 
them to come back and comment on that. If we made mistakes in 
the review process, given the investment we have made and the 
good work of people, we will fix those mistakes.
    Nonetheless, there has been a view of some that what I 
consider to be good stewardship of public money is outrageous 
and unacceptable. I don't think that is true. I regret that 
there have been those kinds of feelings formed by people. 
Again, you have a lot of experience. We have talked about this. 
A 10-percent failure rate among grass-roots startups in these 
kinds of environments is an enormously low failure rate, and we 
would like it to be zero. And we will work to provide technical 
assistance to get all these started up. But the vigor and the 
animosity that has been created I regret because I think it 
creates a fight among the family, and the family works better 
when we are all moving ahead.
    Mr. Cummings. I just will tell you, I had a chance to meet 
with a lot of those folks after we spoke, and, you know, it 
just--they are the kind of people who you just want to--you 
want to hold them by the hand and say, ``I am going to walk 
this road with you.'' And I guess my biggest fear is that when 
I think about the money that we spend for all kinds of stuff--
and I am not going to get into all of that, but we spend a lot 
of money for a lot of things in this country. And when I have 
people that are willing to volunteer to deal with something 
like drugs--and some of them have programs that could possibly 
bring them harm. I mean, just--I mean, when you start messing 
with drug reduction--dependency reduction and things of that 
nature, you start--you can get into some very bad situations. I 
guess, for the life of me, if anything, I would be one trying 
to make sure that even if CADCA wasn't able to do what they 
said they were going to do in the time when donations from 
charitable kind of groups, you know, going down because of 
Katrina and probably a whole lot of other things, it just seems 
to me that we could step up to the plate a little bit better, 
that is all.
    Let's talk about methamphetamines. You were just talking to 
the chairman, and I think you said that there was a reduction 
in methamphetamine use among young people? Is that what you 
said?
    Mr. Walters. Yes.
    Mr. Cummings. One of the things that was so interesting, 
and I think Mr. Souder will testify to this, is that when we--a 
few years ago, this subcommittee, we didn't get a whole lot of 
attention. People said poor Souder and Mica and Cummings, you 
know, this subcommittee that deals with this negative issue, 
drugs--you know. And then suddenly methamphetamines came along 
and we became the most popular people in town because it was 
discovered that methamphetamines are in communities. They are 
not in the inner cities, they are on the farm, they are in the 
Midwest, West Coast. People who never even thought about us--I 
am talking about Members of Congress--now, how can I help you, 
you know, can you help me get a methamphetamine bill through, 
and all this.
    I guess my point is, you know, you have a situation where--
and I want you to just talk about this a little bit--the 
administration is proposing $25 million for methamphetamine 
treatment, treatment grants using some kind of voucher system. 
Is that right?
    Mr. Walters. It is part of what people can--they can use 
other treatment money for methamphetamine treatment. We are 
trying to do some targeted initiatives both with NIDA to 
improve treatment for methamphetamines, but part of the 
access--the 14 States and one Native organization that received 
the 15 first Access to Recovery Treatment Expansion Grants, 
some of those, like Missouri, have focused, where they have had 
methamphetamine problems, the expansion of capacity on 
methamphetamine. So there is flexibility here for application. 
And of course the larger block grant can be used as needed in 
States, based on the situation they find themselves in.
    Mr. Cummings. And so--but there are a finite set of 
treatment approaches, is that right, for methamphetamine?
    Mr. Walters. Yeah. One other area here--I mean, this is not 
unlike some of the discussion we saw earlier about crack, that, 
you know, it is not treatable. Well, it is treatable. And we 
have people that are in recovery, we have courts that are using 
techniques with treatment for drug courts here, and we have 
treatments that work. Now, it is a horrible drug--there is no 
more horrible drug--and it is devastating to people. It is not 
easy, as it is with other drugs, including heroin, as you know, 
and cocaine, crack, and others, to get off methamphetamine. But 
it is not true that people have to be hopeless.
    Mr. Cummings. Well, you know, that is one of the things 
that concerned me. I mean, all the testimony that we have 
heard, and we have heard testimony from a whole lot of folks 
with regard to this drug. And I was just thinking, if you give 
somebody a voucher, you have finite approaches to treatment--
and what I know about the meth addict--I am just wondering, is 
that a good idea when these folks--assuming they have troubles 
making decisions anyway. Do you follow what I am saying? Is it 
good to just say, OK, here is a voucher, you go and shop this, 
I mean, and this guy just--you have heard some of the things 
that meth addicts do. I am just wondering. I mean, what is the 
thinking behind that?
    Mr. Walters. I think maybe that is a misimpression that the 
word ``voucher'' has created. This isn't like ``Here's a slip, 
go find treatment.'' It gives, essentially, a reimbursement 
commitment for an individual, who then can choose the kind of 
treatment provider. Most of the States that have implemented 
this now have a case manager. I think the goal of the program 
was both to increase access, but also to allow the support of 
recovery services.
    As you know, recovery is a longer process than just the 
time you spend in an inpatient or outpatient treatment 
situation. And the success rate of treatment can be based very 
clearly on can we get you back into housing, can we get you 
into education, and other support services; can we get you in 
job training, did we get family support for this? What the 
program allows is also an expansion of support and flexibility 
in that support, but it also usually includes in the States 
that have done this a case manager that helps the individual 
receiving services to put those services together.
    You are right, people are addicted. They are impaired. They 
have trouble putting their lives together. In fact, you could 
say that addiction is about your life falling apart. So what 
this does, for the first time, is, in some cases, some States 
are going to find--are reporting to us--as they put it all 
together, it gets more expensive. It is also more effective. 
And it is more capable of utilizing capacities in the community 
that are there, that are not frequently tapped.
    So what we see this as doing is allowing people who are 
addicted to enjoy the same kind of situation that most 
Americans receive their health care under. You get identified 
as needing services, you have an insurance company or a 
provider who is going to provide services for wherever you are 
referred suitable for your condition, and we are going to pay 
them for the services they provide at a reasonable rate.
    So all this does is--it doesn't say, in some cases, to an 
addict, you have one choice; we're funding this center here, 
which may be doing a great job, but it also may be a long way 
from where you are, it may not be the right place for you, 
there may be other places that could help you and other 
services in support of that place that it would help optimize 
your recovery. We are trying to capture what the field has 
shown us is needed to optimize success rates and to allow that 
to be a part of the way we provide funding.
    That is why we are excited about what we think is possible 
here, not because it is simply trying to fund a certain kind or 
it has tried to have people walk around for the sake of saying, 
oh, we're for vouchers, if you like vouchers you will like 
this. It provides a kind of reimbursement process that allows 
case management, follow-on services, tracking, and the ability 
then for the maximum application of what we know works.
    Mr. Cummings. This is my last question, because I know we 
are going to get to Mr. Mica.
    At the CADCA conference the other day, they had this 
question that they wanted answered. And the question was what 
is the perception on Capitol Hill about treatment 
effectiveness? And they wanted to know what is it that they 
could do to convince the administration that more money was 
needed for treatment. Understand, a lot of those people 
probably come in contact with folks who need treatment and they 
know--and they, basically, they are the choir. They see 
treatment they believe, for the most part, that it works. They 
know that people slip back and, you know, they get that piece. 
But they are in those communities where they don't have always 
the access to treatment that they need, but yet still they have 
to live around this person who is now a ghost of who they used 
to be. They are lying, stealing, robbing, and what have you.
    So, I mean, what is your perception of treatment that you 
believe is working? And how are your beliefs manifested in this 
budget? In other words, how do you take your beliefs, whatever 
they are, and how are they prioritized in this budget?
    Mr. Walters. I don't think there is any question that 
treatment works. And I would say the best response to those 
people who have questions about that is, you know, go to the 
graduation of a drug court or a treatment center, or talk to 
some of the millions of Americans who are walking around in 
recovery. I don't think we need to debate this anymore. I 
recognize there are also people who had a particular family 
situation where a family member has been wracked with this for 
a long time. We know it is not a victimless activity. It makes 
everybody--and there are people who have lost hope. I have met 
those people in Government and out, where they know it is not 
politically correct to say treatment doesn't work, but they 
believe it because they have been suffering so much.
    But that is not the common reality. And I don't think 
anybody that has a family member, even if he had a tough time, 
is going to say, well, my next family member that has a 
problem, I am not going to do anything for. We want treatment. 
We want effective treatment, we want it early.
    But what this also--this budget and this policy--reflects 
is, I think our view--and we have learned this from the field; 
it is not me--we need to thicken what we consider to be 
treatment and intervention. We know that people start getting 
in trouble before they are 10 years addicted. They start 
getting in trouble when they are teens. So we are starting to 
strengthen prevention and intervention--community coalitions, 
the Media Campaign, other programs. We are also trying to do 
interventions through student drug testing, to use the tool 
that lets us connect the dots between addiction-is-a-disease 
and the way we detect other disease and allow us to bring the 
care we know will work at an early stage when we know we can 
optimize results.
    Also, we are supporting intervention in public health 
system. We know that people who begin to and have substance 
abuse problems are more likely to get diseases, be in 
accidents, be victims of violence and perpetrators of violence. 
We don't screen effectively in our health system. We want that 
to be a greater part of it, and we are asking for more money in 
that to build into--and we have gotten through this effort 
major certification organizations to look at whether or not to 
certify shock trauma centers on the basis of they screen 
everybody that comes in, so that we can refer people to 
appropriate levels of intervention and services and cutoff the 
path of destruction more effectively, as we have done with 
those diseases.
    In addition, we have asked for an expansion, as I said, of 
drug courts. It is extremely disappointing for me that, after 
asking for year after year for more money, that we end up with 
less than $10 million. We are asking for $60 million more 
because this is a great investment. The Federal Government, 
again, starts up drug courts and allows communities to continue 
them. They save money on incarceration, they save lives, cycles 
of crime. The people who--you have been there, you know. The 
people who are involved in this on the judicial side, on the 
prosecutorial side, on the public health side--not to mention 
the clients--think this is a Godsend.
    It is growing. But we could make it go faster. And the 
faster we make it go--again, the slide about interdiction. What 
pulls those drugs into this country? One essential thing: 
addicted users in the United States. Ten percent, 15 percent of 
the heaviest users consume 60 to 80 percent of the drugs. The 
drug trade in the United States depends on addicts and is 
continuing to crush addicts with the volume of addiction. If we 
pull those addicts out, every one of those people is worth tens 
of non-addicted users because of the quantities involved, the 
dollars involved, not to mention the destruction in our 
communities.
    So, yeah, what we want to do is thicken intervention. You 
mentioned how many untreated people there are. The other reason 
to thicken intervention is, as you know and we have talked 
about, this is a disease that involves denial. You don't say I 
have an attack of appendicitis and I have come to get help. I 
am candid about my symptoms and I do what I am told. When you 
confront many people that have this--and every family has been 
touched by it--they get angry: No I don't; mind your own 
business; leave me alone. We have to do it anyway. And when 
institutions do that, whether they are criminal justice, 
whether they are health, whether they are education, whether 
they are workplace and employment, whether they are in schools, 
we have a chance of changing. We know how to do this. We are 
impatient to move it forward.
    And I will tell you, one of my other concerns--we are 
talking about dollars here. I will be happy to work with any of 
you all the time up here to work with appropriators to convince 
them to put these dollars in. Because I think on the drug 
courts, you know, we sought $200 million when we proposed 
Access to Recovery, and a lot of you tried to help us. We got 
$100 million. We have implemented it. We would like to continue 
to use the innovations that it has shown to broaden out and 
reform for more people the treatment system so that it can be 
as effective as we know the current understanding allows it to 
be.
    So, yeah, I think this does reflect not my view, but, as 
you travel and as you look at it, what people who are doing the 
work tell us will optimize it. Now, can we put more resources 
in? Sure, we could put more resources in. But I have a problem 
with the absorptive capacity of the Government to accept the 
proposed resources that we have had here. And frankly, it is 
hard for me to make recommendations for moneys after Congress 
has said we don't want to appropriate at that level. Because 
there are many other demands in education and health for, you 
know, senior citizens and other demands that are here. And I 
think the question comes down, as it does to you, when you 
can't get a consensus on something, why don't we try to fund 
the things there is consensus on that are still important and 
valuable.
    Mr. Cummings. Thank you very much. Perhaps you can give me 
a written response to this issue of girls. There was a recent 
report that I heard about girls using drugs at an alarming 
rate, much faster than--I mean, in other words, the numbers are 
going up for our girls, and I just--maybe you can answer that 
while you are answering somebody else's questions. But that is 
something that certainly concerns us, because I don't want us 
to move--you know, have this happening, and we are so busy 
looking at the total picture that we don't look at our girls.
    Mr. Walters. Right. It is historic. In short, as the 
indications are there, the pie size of the number of teens 
using drugs has gotten smaller for girls and boys. The slice 
that is girls has grown to levels that it hasn't since we have 
been measuring it. They are equal to boys in using overall 
drugs and in alcohol use; they are greater than boys in using 
marijuana since 2002; and they are greater than boys in using 
cigarettes and abusing prescription drugs. We tried to give a 
wake-up call--got to pay attention to girls. Girls use for 
different reasons. We are trying to use our Media Campaign to 
make sure we test messages, as we have been over the last 
several years, that work for girls and boys. And we're trying 
to alert parents: Don't just worry about the boys, you have to 
worry about the girls and you have to take on board the reasons 
that they use. We will give you the information.
    Mr. Cummings. Thank you.
    Mr. Souder. Mr. Mica.
    Mr. Mica. Thank you.
    Thank you, Director Walters, also for recognizing some of 
those that have made a difference in our communities and across 
the country in this difficult substance abuse effort. In 
particular, I appreciate your pointing out and recognizing 
effectiveness of a drug-free community coalition like we have 
represented here with One Voice for Valusia. These folks, not 
Congress, where the Office always makes a difference; it is 
those community efforts. I have a couple of questions about 
those efforts as I conclude my questions.
    I have been playing dual secretaries--we have Chertoff 
across the hall. It was kind of interesting to hear Chairman 
Souder talking about some of the things that were done with the 
creation of Homeland Security. We got into the same discussion 
next door, the efficiency of 177,000, 20-some agencies being 
put together and trying to operate. It is quite a challenge.
    But we identified over there, before I came over here, one 
of the problems. I identified it as Congress. Congress created 
that.
    One of the issues that I wanted to lead into that we are 
having a problem with is HIDTA. And I know you are running into 
another brick wall. Maybe you like bashing your head against 
that brick wall--it feels good when you are done. But other 
than that, the proposal sounds like it is sort of DOA again. I 
have already been lobbied very effectively on the issue, but it 
still remains a challenge. Congress created HIDTAs to put 
Federal resources in targeted areas where we had serious drug 
problems and combine it with other local and State resources. 
How many HIDTAs do we now have?
    Mr. Walters. Twenty-eight.
    Mr. Mica. And how long have most of those been in 
existence? When was the last one created, do you recall? Most 
of them are--have been around for some time.
    Mr. Walters. I think the last one was created in 2000. I 
will double-check that. But most----
    Mr. Mica. Approximately 2000.
    Mr. Walters. There were five original HIDTAs in----
    Mr. Mica. How many have we eliminated?
    Mr. Walters. I am not aware that a single one has been 
eliminated.
    Mr. Mica. It is very hard, you know, when Congress--and I 
think you read the list of all--there is a list of opponents to 
doing anything. Maybe we need a BRAC commission for HIDTAs. Not 
that they aren't good and not that we don't need them, but 
again, it is very frustrating. And now the--it is a quarter of 
a billion dollars, approximately, on them. Not targeted. I got 
mine. I had to get mine--you know the story, I was on the wrong 
side of the political aisle and Clinton wouldn't do it. We had 
people die, young people in particular dying in the streets of 
central Florida, and no one would do anything about it. 
McCaffrey was the drug czar. He could have created one, but the 
others got theirs, I wasn't getting mine, I wasn't up. So I put 
mine in legislation.
    And then I remember the call from the press, ``Mr. Mica, 
you have just been identified by Senator McCain as having a 
pork project, a bad earmark and disgraceful performance.'' I 
called John McCain and read him the riot act. What had happened 
over in the Senate, they added two more HIDTAs for God knows 
where, and they are still there, that really weren't needed. 
And John did give me a letter of, I guess--what is it when the 
pope grants you a pardon? Indulgence. I got an indulgence from 
him.
    But I still have my HIDTA. Mostly they are getting the same 
amount.
    So I recognize the problem, and they have mounted a great 
campaign. Maybe you ought to look at something else, maybe some 
compromise, John, to try to move some of this money around. I 
mean, many of them are still doing a good job, but that wasn't 
the purpose. Is that basically correct?
    Mr. Walters. Yeah, I think many of them are doing a good 
job. Unfortunately, in the proposals that we have tried to make 
to reflect the capitalizing on that good job, the view has been 
taken that we are against the program. Again, I was over when 
the first five were designated in the President's father's 
administration. I think this could be useful. But the problem 
is that it has to be focused.
    Mr. Mica. Do you have the power to move any of that, or is 
it still targeted to each one? I mean, you should increase your 
security, because these people are hopping mad that you might 
take their HIDTA money away or move it somewhere else.
    Mr. Souder. Mr. Mica? In 2003, we proposed giving him 
authority to reallocate, and ONDCP opposed being given that 
authority.
    Mr. Mica. Do you have that authority?
    Mr. Souder. No, he opposed it.
    Mr. Mica. You opposed it?
    Mr. Walters. Well----
    Mr. Mica. Would you now--I mean, you are not going to get 
what you asked for, so that--I mean, I propose this again as 
one solution.
    Just think about it. But again, I can tell you, around here 
218 votes beats the best argument you can possibly come up 
with.
    Mr. Walters. Well, let me just ask the two of you. I know 
you can't represent the whole Congress; you are part of it. I 
do have the authority, as I understand it, to designate and de-
designate counties in HIDTAs. What do you think would be the 
result if I actually said, oh, I won't de-designate whole 
HIDTAs; I will de-designate counties where drug use appears to 
be down, or where the problem doesn't seem to be as severe? And 
I de-designated, say, 50 counties of the program, which has 
many, many counties, as you know, all over the country.
    Mr. Mica. Well, my opinion is----
    Mr. Walters. What do you think would be----
    Mr. Mica. I think we should give him the authority to do a 
tough evaluation of the effectiveness of the programs and then 
move the money around. That would be my opinion. And I would 
support that proposal. Then you do it, you will be even 
probably more unpopular than you are right now, but somebody 
has to do it. And obviously, Congress isn't going to do it.
    Mr. Souder. We have several things here. First off, the 
appropriators have asked you, and you have the opportunity at 
any time to propose to them, how you think the money ought to 
be reallocated. And they have an open invitation. We tried to 
make that change in law on reallocation. We also, in the 
current ONDCP bill, give you more flexibility to do that. And 
as you know, I was willing, and we were trying to work out some 
kind of compromise on this national focus in the HIDTAs to try 
to make sure that they didn't all go to State and local. It 
became partly complicated, which I didn't fully understand at 
the time, because many of the newer counties, like in Oklahoma, 
in the north Dallas, in the Missouri HIDTA, were meth HIDTAs. 
And since we didn't have a national strategy on meth, and their 
biggest problem was meth and at the local level they wanted to 
do that, well, we had some disconnects.
    So part of this has been a battle over meth. I think your 
question is a fair one. What would happen if you actually did 
try to do something?
    Now, the question is--I think it would be very difficult. 
The counter-question to that is, why?
    In other words, it isn't enough to say, oh, this is just a 
pork project and each Member of Congress is defending it. What 
we are saying is the local law enforcement in charge of 
narcotics come to us and say this is the most effective program 
that we have. They are saying the same thing on Byrne Grants. I 
don't have a HIDTA. I didn't offer to do a HIDTA and I said, 
no, I don't need a HIDTA. We have the Byrne Grants, drug task 
force, that is what my community wanted to do more. Not 
everybody has a HIDTA.
    And I have had my concerns here and there, but the bottom 
line is this. The reason it would be hard politically to change 
it isn't because there is some kind of graft or pork or this 
kind of stuff, it is because local law enforcement has found 
this to be an effective tool of leveraging, as we have had 
multiple people come up to us and tell us that as they are 
squeezed at their local level. The Phoenix Police Department, 
for example, gives three people to the Southwest Border HIDTA, 
and he said that if there isn't HIDTA funding, he will pull his 
out. And without the Federal dollars, they won't do this.
    And so that pressure is hard here because this is a popular 
Federal program. It is not a popular Federal program among a 
few people, it is popular at the grass roots overwhelmingly, 
and they were early on responding to meth. And that is why it 
is hard to change and why there is an increasing demand. It is 
one of the only areas in narcotics where there is an increasing 
demand for it. And what we have right now is this incongruous 
situation where the people who have been leading the efforts 
for years to buildup your office, to fight narcotics, who get 
most of our drug support are just really upset because you have 
not exercised your authority to even make a proposal of where 
it should go.
    Last year, and I am more than willing to ask you again this 
year--is there any HIDTA that you think should be decertified? 
Is there any HIDTA that you think isn't doing well? You and 
then the Justice Department say that they can be more effective 
with OCDETF. I asked Paul McNulty the other day and I asked you 
last year, OK, which one? How aren't they being effective? 
Don't just tell me, oh, we think we can be. How aren't they 
being effective? Because if you can't give us one example of a 
HIDTA that doesn't work, one example of what isn't effective 
that could be more effective; if you can't show us a single 
reason for the change, of course Congress is going to oppose a 
change.
    Mr. Mica. Reclaiming my time.
    You see the problem. Now, I would--it is very difficult. I 
got them, I want to keep them. You know, to paraphrase the 
President, we have an addiction to Federal money. And these 
people have all gotten hooked on it. Somebody has some other 
Federal money and you pull the plug, maybe it is like a little 
bit with an addict, we have to work out a program for 
withdrawal. Maybe there are a lot more addicts someplace else 
that need attention, but we have ourselves in a dilemma here 
and we need to find a--again, the current proposal, as I said, 
is DOA.
    Let me jump from that, and hopefully, something productive 
can come from this discussion.
    Last year, we talked about moving some of the media dollars 
around a little bit. And I know you have limited media dollars. 
But we talked about the Media Campaign not following some of 
the problems that Cummings was interested in because of this 
new emergence of females sort of leading some of the addiction 
problems.
    But I saw where you have responded and you have an online 
campaign for, what is it, 14 to 16. But we are finding even 
more and more people of all ages get their information from 
online. I can get all my drug recipes online and concoct meth 
and everything else. But there is not a lot in other 
categories. Maybe with a few bucks we could get online some--
and again, I know you have some limited, but just a suggestion 
to take back.
    Mr. Walters. Well----
    Mr. Mica. One of the other things--I just throw that as a 
suggestion. You don't have to respond.
    Mica's last suggestion for the day: In dealing--again, I 
inherited in the last 36 months a different district than I had 
the previous 10 years. I had fairly sophisticated communities 
that could--we could write the best damn grants in the world 
and get them approved, and I would back them up and we would 
send little letters in and that money would flow in. But I find 
in my experience with the poor districts, where I have drug 
problems that make everything else pale, the addiction and 
criminal justice problems, is the lack of sophistication to 
even put a grant together. Now I am finding a lack of moving 
forward. I mean, to put a grant together--and you know what I 
am talking about--we had to bring in people from three other 
entities to even try to meet the requirements.
    So you are probably getting the best and most sophisticated 
and putting our money to those who know how to operate this, 
but you have folks here who don't have that capability.
    Then the second part is even actually running, for example, 
a community drug-free program. And I am seeing the same thing 
here. They don't even have the resources to put that kind of a 
program together.
    In any event, I am rethinking some of what we are doing 
there as leaving people who need the attention the most, who 
are least capable. They are going to be, probably, the people 
that score some of the lowest scores in those traditional 
applications and then sort of flub the dub, and they are the 
people that need some kind of help.
    So I think that is something else we need to take another 
look at.
    Mr. Walters. I agree with you in a couple of dimensions 
there. One, we have put into place efforts to do outreach and 
technical assistance to areas that have more limited resources. 
We also give a priority for those areas that have economic 
disadvantage, rural, urban, Native American tribal areas. And I 
am pleased to say that in the Safe and Drug-Free Schools 
program, for example, 40 percent of those awards go to 
disadvantaged areas. So that is partly working.
    But I also agree with you that we need better ability to 
track where the problem is.
    Can I ask you to put up the meth chart, No. 8? I want to 
give you an example of what we are trying to do. This has 
methamphetamine, but you could use cocaine or marijuana or 
opioids.
    We are now getting information from the largest workplace 
drug tester in the country. No identifying individual 
information, but millions of tests a month, down to three-digit 
Zip Code, which is what you see there. Some of these areas that 
are less populous, the three-digit Zip Code is of course 
bigger. But that, in short, for calendar year 2005 is the 
methamphetamine problem in the United States. You will see how 
the darker areas are the more intense rates of positivity. It 
tracks with what you see in the newspaper, of course, States 
that you see mentioned.
    But even within individual States, it is extremely 
concentrated in some areas. What we are trying to do is to work 
with the community coalitions, with our friends in Justice and 
HIDTA and other places--and I like HIDTA. Let me just say that 
because I think it has gotten lost here. Not every part of it, 
and I think there are going to obviously be some changes, but I 
like what we are doing here. What we are trying to do is to 
blend the kind of intelligence we try to use to be effective in 
the war on terror. Because we have a problem that is not 
everywhere, it is not equal everywhere, and by hosing water 
everywhere, we don't put the fire out where it is. And we 
certainly don't put it out where it is very intense.
    So what we are trying to do is provide a way to move this 
information and other information like it directly to the 
people that have to work--in State government that are our 
partners, national government--so that we can also then say, 
look, why aren't we driving treatment resources in these areas 
where this exists? Why aren't we better targeting drug courts 
or community coalitions into these areas where it exists? Can 
we actually program now, effectively, the response to where the 
problem is in a more localized fashion?
    In fact, in these States, if you--actually, we ran this 
data. The positivity rates in these States--and, for example, 
the small toxic lab data. If you run small toxic lab data for 
the overall States, the change for a 2-year period, and you run 
it against the Uniform Crime Reports measures of violent and 
property crime, they don't correlate beyond .3--which is not a 
correlation. Why? Not because meth doesn't cause a great deal 
of violent property crime, not because it isn't extremely 
intense where it is; it is just so focused in States that in 
some cases that focus is not causing an overall trend in the 
State.
    So if we are going to deal with it, we need to localize. 
And I think that is an issue for getting to disadvantaged 
communities, getting to communities that are broken because of 
the magnitude of the drug problem. But I also think it is a 
matter of how we begin to use law enforcement to cutoff either 
access or production of drugs so that the supply and demand 
parts can work.
    That is what I think is an example of how we want to move 
dynamic change into HIDTA, into drug courts, into Media 
Campaign programming, is that we can begin to tie some things 
together through these data sources and through responding to 
them.
    Mr. Mica. Now, for the record, in closing, Mr. Chairman, I 
would like the Office of National Drug Control Policy to 
provide an overlay where we have the current HIDTAs on that 
map, just for the record. I think that would be interesting to 
see.
    Thank you, Mr. Walters. Carry on. But I would advise 
getting more personal security.
    Mr. Walters. Can I respond to one other thing? On the Media 
Campaign suggestion you made, which is a very good one, we have 
been trying to watch this, we have tried to use some of our 
money to track this--we have moved more of the messaging online 
because the kids are not necessarily watching conventional 
television or even cable television. They are online, and 
through the help of the best people we have working with us in 
advertising, we have moved more appropriate messages online and 
tied this.
    Also, with respect to girls, we have learned that girls 
have different motives, we have tried to use, as you know, a 
new branding of the youth antidrug campaign, called Above the 
Influence, to get at both the aspirational and the feelings 
that many young people, both boys and girls--particularly 
girls--say they feel pressure as young people, adolescence is a 
difficult time; they use drugs or they get caught up in drugs 
because they feel pressures to conform. We are trying to 
reinforce those sentiments generally, and we hope the campaign 
will help play into that research as well.
    Mr. Mica. My point, too, is not just that category--and you 
have done a good job there--is looking at other categories. And 
again, I know you have limited resources, but maybe with a 
little creativity we could get more online for different 
categories.
    Mr. Walters. Oh, I would be happy to look at and work with 
you, if you want to look at expansion. All I would say is, all 
the research we say is we have to maintain the weight. 
Remember, as this goes down, the remaining group is harder. So 
if you want to talk about letting it take your eye off the 
ball, if we want to expand it, that is fine, but there have to 
be more dollars. We have to have more dollars to hit the 
current target audience, in our judgment and the judgment of 
the partnership and others that we work with, and we have to be 
able to put the--if you are going to talk about expansion, we 
have to be able not to throw out the base as we move on to 
other areas.
    Mr. Souder. One of our fundamental disagreements here is I 
understand why you have the strategy you have--marijuana is the 
base drug, it is going to show more evenness across the 
country. But partly both in--just as background, this is partly 
marketing and advertising, and that you also have to be able to 
capture people's attention, it is the kind of intensity of 
watching an ad, the uniqueness of it. Trends go. Our message 
isn't about a particular drug, our message is illegal drugs are 
bad. And if you are in a curve in the country where there is an 
intense interest in meth, even in an area where it is not 
hypothetically, or Oxycontin comes up, the novelty of that and 
the focus and how it gets covered in CSI and Law & Order and 
other types of things means that the basic message is narcotics 
are bad, and underneath it marijuana and often drugs and 
alcohol are the gateway. But if you keep the same message over 
and over again, it wears out and your intensity. It isn't that 
you don't change certain kinds of premises, or even the 
marijuana questions.
    I had some police people in from Noble County, Drug-Free 
Noble County, this past week. They reported the first THC 
between 40 and 50 percent in Indiana. It is the seventh--could 
you leave the chart up there on meth? I have some technical 
questions on that.
    But in the fundamental with this, that you have to show 
some movement. And if you don't, the Members of Congress are 
reflecting not just, yes, there is opposition on the marijuana 
campaign, but it isn't meeting where the demands are.
    But let me ask a couple of questions about that chart, and 
it would relate to other drugs as well.
    How old is the data? How timely is that data?
    Mr. Walters. I believe it is a--as it says there, it is a 
consolidation of calendar year 2005.
    Mr. Souder. So these are tests that occurred in 2005, or 
data that was given to you in 2005 from tests earlier?
    Mr. Walters. It is data from, I believe, tests in 2005. I 
will check to make sure I am stating that correctly. And it is 
positivity rates among those tests.
    The data is available monthly, but in order to have 
sufficient cell size in all the Zip Codes, it is generally 
amalgamated.
    Mr. Souder. And do you lay that over with emergency room, 
lab seizures, and so on?
    Mr. Walters. We are beginning to be able to do that, yes, 
sir.
    Mr. Souder. Because I would say any particular piece of 
data will suggest something slightly different. This is also a 
reflection of how many drug tests you have. For example, in a 
rural county you are going to have fewer people doing drug 
tests; therefore, if you find a little bit of meth, it is going 
to be darker brown. You have bigger tests--I mean, I took 
multiple courses in statistical analysis. There are some 
fundamental questions there, because, for example, what I can 
do is look at my whole thing and go, man, is that wrong, that 
there is some total disconnect with emergency rooms, law busts. 
The brown is not in the places where the law enforcement 
problems are, where the school problems are, where the 
treatment problems are.
    And the other thing, I look at that map, is, man, I have 
been wrong, meth is a national problem, I thought it was a 
regional problem. It is more intense in the rural areas, but 
this stuff has moved into Florida. We hadn't thought that meth 
was down in Florida to that extent. We didn't know it was up in 
New England to that extent. Man, meth is a national problem. 
And that we have been buying that the intense brown, it is just 
that it is more intense in those areas and it is a newer drug 
there, and those Members of Congress are going crazy.
    And the other thing is, how does this map relate to the 
2004 map and the 2003? My premise has been that the areas that 
were kind of orange moved to lighter brown, then moved to 
darker brown, and we have seen a steady progression of this. 
And this is a drug that you can in fact get ahead of because 
this is one we can sell and we can use that as a gateway to do 
the others. And I have been trying to make that message and I 
think Congress is doing that. So instead of it being in the 
National Media Campaign, you have had more or less a rump Ad 
Campaign startup, which I believe was up to $6 million this 
last year targeted specifically to meth, that is totally 
outside, based on individual Members' ability to convince 
people to write that in, just like meth hot spots is coming up 
as a separate earmarked program because there has not been a 
coordinated strategy that is responding to the fact that map is 
dramatically changing. That is a great thing that we should 
have had a long time ago.
    So first off, I compliment you on doing drug testing 
because it is something that is being done on a regular basis. 
So are drug courts. So are child protection questions. So are 
emergency rooms. And as we get better data, we can move that 
and then look at how is it changing. And instead of reacting, 
try to get ahead of it. And I would argue that a blended 
strategy--and I just said ``basic''--I don't think you are 
going to get--I mean, I have been trying to sell this ad 
program, too. And what I know is when we went to the floor with 
an amendment to put money into meth in the National Ad 
Campaign, which, by the way, wasn't ruled out of order, so I 
assume it would have been allowable--that it had overwhelming 
bipartisan support and we were able to increase the Ad 
Campaign. But when it came back out, then the Ad Campaign went 
back down. And that there are some practical tradeoffs here.
    I would also argue that I don't know how many kids use 
meth. In my opinion, it tends to be weight loss, more like an 
amphetamine, or tends to be adult-oriented but kids get caught 
up in it. At the same time, I don't believe the current survey 
structure is going to find kids who are using meth anyway. In 
many cases, they aren't in school, their parents are 
disorganized, they are almost zero percent likely to return any 
kind of questionnaire. It is arguably the most dysfunctional 
unit of Government--or unit of drug use to try to test. They 
are worried somebody is going to smell their drug lab. If I was 
a person doing a survey, I would be--as a postman, I might be 
afraid to deliver, let alone try to hand-deliver something. Or 
in school. It is a much harder population even than heroin and 
cocaine to try to get in your survey anyway.
    And we certainly can't make policy on how we are dealing 
with meth based on the fact that it dropped from 1.3 percent to 
.9 percent, which is statistically irrelevant in the change 
anyway because it is too small a sample size to--probably the 
variation is at least 5 to 7 percent statistical variation when 
you get down to that few people inside of a category.
    But the bottom line is we are still splitting hairs here 
because I don't think that this is the target problem on meth.
    Mr. Walters. Well, again, let me just go back. First of 
all, the number that you cited in that survey is statistically 
significant--not all the changes are--but even at that small 
cell size. But the point is, I agree young people are not the 
major using population for meth. It is young adults. And we 
target those people as well. But again, if you show here--what 
you are seeing in the press that I think is reflected in the 
data we have--can you show me the----
    Mr. Souder. By the way, can I ask a fundamental question? 
Maybe your staff knows. Were there 1,000 people in this survey 
or 100,000?
    Mr. Walters. I believe there is about 70,000. Oh, 49,000 in 
the Monitoring the Future survey.
    Mr. Souder. So 49,000 means that there were 490 meth cases 
that basically dropped to about 410 meth cases, something on 
that order.
    Mr. Walters. Yeah, I would have to check the cell size.
    Mr. Souder. I would argue----
    Mr. Walters. And I don't do these surveys. We rely on 
statisticians that do that.
    Mr. Souder. Well, that statistical differential is greater 
than 5 to 7, which is what you normally measure.
    Mr. Walters. Well, again, I am not----
    Mr. Souder. It is significant, because you made that as a 
pivotal point in your statement.
    Mr. Walters. No, I----
    Mr. Souder. And also in your comment that it had dropped. 
And what I am arguing is a statistical variation even of 3, 
when you only have a point-4 or 5 differential, means that it 
could be 4 percent, which would be 4 times higher. That your 
standard deviation on a sample size that small----
    Mr. Walters. Again, I don't run the numbers. I rely on the 
statisticians who do. In this case, they are not Government, 
they are under contract at the University of Michigan. They 
have been doing this since the mid-1970's. They tell us what is 
statistically significant over the period of time. The change 
can be smaller over a longer period of time to be significant 
as I have seen it in the past. But these are not my numbers. 
These are numbers by the people who have been doing this for 
well over 20 years.
    What I wanted to say is, on the larger population of meth 
users, which I think is an important issue here--No. 7. What we 
have seen in the larger household survey, which you referred to 
earlier, that has been going on for awhile, we have made 
efforts to try to capture some of these individuals. These are 
not a census. They give us relative sizes. I agree with you, 
these are hard things to survey.
    But what we have here are those who are age 12 and above in 
household survey. The numbers for the comparable years, the 
survey structure, as you know, has been changed. It has been 
made automated. We have now to maintain a sample size and 
integrity, paid individuals for participating--that causes some 
change in the survey. We have, at my direction, changed the 
placement of the meth question for the next year to make it 
more prominent, to make sure that we are not underreporting 
because of where it may be in the survey. I did that after I 
took the survey. The results were not part of the national 
sample, but I insisted on seeing how these instruments work and 
asked that, particularly with meth, that we try to make it more 
a prominent part.
    So we will adjust this estimate, probably, up some. It 
won't be a perfect census, but it is a relative measure, as it 
has been over years of looking at the issue of cocaine and 
heroin and other drugs, a relative probable suggestion of 
trends and relative magnitudes among the other drugs. What you 
see here is the troubling dimension of meth, I think.
    On the overall, we haven't had much of a change in the 
aggregate number of meth users. But each year for the last 3 
years, the number of people addicted has increased by 50 
percent. The smaller portion of those individuals, as you see 
in red, are those whose primary addiction is to meth. The 
larger portion, also increasing by 50 percent per year, are 
those who have a primary addiction to another drug and are also 
using meth.
    So what we have is an increasing overall portion of the 
overall users of meth who are addicted. The need for treatment, 
the burdens you have seen yourself and heard in the press--
emergency rooms, treatment facilities being burdened here--are 
exactly what we see in these national numbers. But again, I 
point out, as from the other map, that is not going to be 
uniformly displayed across all counties in all places at all 
times. It is going to be where the drug is concentrated.
    The earlier charts show workplace tests. Probably most of 
those tests, positive tests, are not people who are addicted. 
Some of them may be, but they are probably coming in because 
they are detected using but they are not yet addicted.
    This figure gives us a slice through that shows us 
something about those who are the heavy or most addicted users. 
What we obviously want to try to do is array that data as well 
across individual geographic spaces and populations so that we 
can see where there are concentrations. We do get reports from 
drug courts, we do get reports from HIDTA. We do get price and 
purity and availability data. We do get data also from other 
surveys--the User Risk Behavior Survey as well as others--some 
of which have city, urban, sometimes non-urban concentrations.
    Our goal is not just to kind of have numbers about things, 
but the problem that you face and we face is how do we make 
sure we are driving the resources to where they belong. As 
Congressman Mica said, we have poor areas that don't apply for 
grants. They are too much under fire to apply for grants. It is 
our job, if we are going to make a difference, to be proactive 
and to be there and try to make sure the programs are where 
they need to be, and to tell you when programs are working. I 
take your point. We want to focus law enforcement resources as 
well, and HIDTA resources here. We have instituted, as you 
know, the first comprehensive implementation of an evaluation 
process for HIDTA. We will begin to have those results. We are 
asking them to program against those results. We are asking 
them to be accountable.
    But you also know that the pressure that we get in the 
appropriations process, a markup of this committee, is not to 
reduce HIDTA counties. I have a lot of friction with Members of 
the House and Senate because they want to add counties. Now, 
sometimes they want to add counties where we should add 
counties, I think, from the data. Sometimes they want to add 
counties because they have people who are working hard and want 
additional resources and will put them to good use. I 
understand that. But our job is also to say, well, is want 
identical with the best deliver of limited resources? Sometimes 
it is not. And I recognize that those are the decisions that we 
are trusted to make. So we do the best we can here.
    But I don't see much language in the appropriation bill 
telling me to reduce HIDTA counties. What I see is directions 
to add. And the problem with that is not that we won't try to 
do this responsibly, it is that when you add it, what am I 
going to have to do? You know what the program has done--it has 
cut money, as a portion, to some of the major original HIDTA 
areas that are cities and towns that still have major problems, 
and arguably have greater problems. That the spread of the 
program without additional dollars--and even though Congress 
has appropriated different amounts than the administration, it 
has not expanded the program.
    Mr. Souder. But even using your own kind of model of 
measurement--that we have added HIDTA counties, we have added 
HIDTAs, and the drug use has gone down 5 straight years--it 
must be working.
    Mr. Walters. That is not my model. I mean, the sun came up 
every day, too, and I don't think the sunrise caused drug use 
to go down. It is not a matter of proximity, it is a matter of 
can we demonstrate that these programs have had a particular 
effect on the problem. Drug-Free Communities. We are asking the 
Drug-Free Communities program to institute measures of 
effectiveness that include, first and foremost, are you driving 
down drug use? It is not so easy to measure in a community-wide 
effort. But if the program is not doing that, it is not doing 
its job. We are trying to do that with accountability in the 
treatment program.
    Now, you raise the issue of Safe and Drug-Free Schools. The 
problem that I have is--and we have talked together. I know you 
are on my side on this. So, I mean, we are arguing as if we are 
at opposite, and we are not--I think. There is no consensus to 
put that kind of accountability in the block grant program, 
because it is supposed to be a block grant. It is not supposed 
to be just a drug prevention program. And people do not want to 
change the authorities to do drug-free. I understand that. But 
under this environment, as we have looked at it--I recognize 
other people have different views--those millions of dollars 
are better used elsewhere, given what they----
    Mr. Souder. Here--and I have one more thing and I will see 
if Mr. Cummings has that.
    Our problem here is not that I don't think it is as 
effective as it should be. I don't believe it should be zeroed 
out because I believe it is one of the only prevention programs 
we have that, I believe, had between 20 and 30 different 
amendments in the Education Committee last time, on Safe and 
Drug-Free Schools, to try to tighten it, to cut allowable uses, 
to tighten it up, that they had to have an antidrug message if 
they did an after-school program. At one point I got so 
frustrated I offered an amendment that education itself be one 
of the allowable uses, because I am sure that would reduce drug 
use.
    In other words, is this an antidrug program or not? 
``Safe'' got added in. School violence, the time we did it last 
time, Columbine happened around that same time. We are about to 
start hearings again, not only here but in the Education 
Committee. That is going to be one of my primary things: let's 
figure out how to make it work. Getting rid of prevention 
programs, when it is one of the major legs, is not a solution. 
Drug testing is part of it, but it is not just drug testing. I 
believe that even if these programs aren't as effective as they 
should be, they, plus the community coalitions, plus the 
National Ad Campaign, plus the arrests, mean we have a net 
reduction in drug use, that there is a holistic, interactive 
relationship when you get different teen groups, no matter what 
the antidrug program is in the school, and it is very hard to 
measure, but it is a backup behind the National Ad Campaign 
working with the community antidrug efforts with testing behind 
it, and that we need to make it more effective. You don't just 
say let's zero it out.
    That has been my argument. It is a nuance of the same 
argument, but the same. We can't just take it over and knock it 
out.
    Now, we have a major difference here on methamphetamine. 
And we can sit here and argue some of these numbers, but here 
is some of the mistrust in Congress. ONDCP seems intent on 
disproving what everybody else in the country is seeing, that 
methamphetamine is an epidemic, in that you continue to come up 
with numbers that I believe illustrate my point, and I don't 
understand the lack of understanding with this. In other words, 
first off, I don't know if I agree with that chart. And I 
believe you were correct in interpreting that chart of 
intensity, and that is part of what we have happening in 
emergency rooms.
    But there is another phenomenon that happens. Because 
States have been implementing pseudoephedrine control with no 
help from the Federal Government or guidance on this. As States 
have been implementing this, labs and some of this drops. Then 
new people come in. Then as we implement our Federal law, it is 
likely to still stay relatively flat, or have a slight decline, 
because of what we did, not because of any help out of ONDCP or 
the Federal Government, the executive branch. And that what we 
are seeing here is new people come on board.
    And I believe, first off, your data is wrong. I believe 
that the Association of Counties reflects that. I believe that 
when you mix a whole bunch of things together, you will find 
that the casual use is up as well as the codependency use, and 
definitely the intensity use is up. But partly, when we go 
after the meth epidemic in individual States, we defeat it. 
Unlike some of our others where we try to control it and get it 
down, meth is one where we can go from 200 labs in an area down 
to 20. And that then crystal meth comes in behind, which is 
going to be--is this crystal meth or labs, or both? I assume 
both.
    Mr. Walters. That is both.
    Mr. Souder. And that the other thing is this chart is going 
to change internally. And if you can't get a sophistication of 
what is happening, that this goes in one regional area, it gets 
intense, the community responds; then it goes in another area, 
it gets intense, the community responds. It looks like it is 
flat when it is not. It is Jello moving around that could have 
been defeated. And now it is going to move as we get control of 
pseudoephedrine--opposed by HHS--get control of international 
standards, which was opposed by the Department of State and, in 
effect, the executive branch sitting aside, other than Attorney 
General Gonzales and the DEA, watching us do this.
    Yeah, we have kept it flat. We have been going at it like 
crazy with meth hot spots, with HIDTAs developing it, trying to 
do regional efforts. The Partnership for a Drug-Free America 
has some ads, but they are doing it outside the Ad Campaign. So 
if that is true that it is relatively flat, it is because State 
and locals have been fighting like crazy to do this, with a 
little bit of help--and we are jumping in.
    And I still don't believe that is ultimately going to be 
flat because now crystal meth is going to come in and suck up 
the demand with a more potent and cheaper drug behind it and be 
able to cut out, potentially, some of the Colombians and other 
dealers because of being able to basically get this through 
Mexico with legal drugs.
    Now, we are working at that. I know we have talked on the 
phone. I know you understand the India-China problem, that you 
are becoming engaged on this as it moves toward crystal meth. 
And I believe it will be then more of a traditional battle. But 
the frustration you are hearing out of Congress when you 
release figures like that, it is like ``this isn't a big 
problem,'' when people are battling their heads off to get 
control of this.
    Mr. Walters. Mr. Chairman----
    Mr. Souder. And you are saying it is not a national 
problem. It is a national problem. It is a national--39 States 
where this is their biggest problem, and you are telling me it 
is not a national problem.
    Mr. Walters. Mr. Chairman, I didn't say it wasn't a 
national problem.
    Mr. Souder. You said it was regionalized and localized, 
even within States.
    Mr. Walters. I said the intensity of the problem is 
extremely localized based on the data I see. I can only tell 
you what I have as the available information to me that comes 
from credible sources. I cannot report something that I don't 
have a credible source for. I did not say this was not a 
serious problem. I believe I said this is as serious and 
harmful a drug as there is. I believe that the good news here 
is that, yes, States have been passing pseudoephedrine controls 
as well as carrying out enforcement. They have been doing more 
treatment, some of it with the President's Access to Recovery 
money in some States.
    Under the management of my office, the HIDTA program has 
more initiatives on meth than any other single drug, I believe, 
over the last several years. We have not been avoiding the 
problem of meth. We have controlled what was first, as you 
know, the diversion of pseudoephedrine and ephedrine from 
industrial-size quantities in the United States for super-labs. 
There was then importation from Canada, and our law enforcement 
at the national level worked with the Canadian RCMP to shut 
that down. We have had remarkable success, it looks like, 
through State and through enforcement action more broadly on 
small toxic labs, which helps us on toxic waste sites, on drug-
endangered children, on danger to first responders. And we hope 
that will also change some of the availability here.
    We are also now working with, and I met with, the Chinese 
Ambassador a week ago. We are meeting with the other major 
supplier countries of Germany and India. There is a conference 
in Hong Kong. And we are working to cutoff the supplies that 
have now been in combination and single ephedrine and 
pseudoephedrine products coming into Mexico where this is 
coming, so we addressed that issue as well. We are 
systematically attacking both the supply and demand for meth.
    I think one of the great things on our side is, frankly, 
that the media does not glamorize meth. I mean, unlike the 
early days of the cocaine epidemic and some of the times a 
marijuana and some of the talk in the entertainment business 
about ecstasy, which was the great threat when I took office in 
2001 that was coming for our children, we have, I think, a real 
depiction of the dangers of meth, which help us generally in 
making a better understanding of the risk to young people and 
young adults and adults generally.
    So again, we are not there yet, but we are not failing to 
pay attention. We are not failing to take steps that are making 
systematic efforts. And I would say last, on the general point 
of what we oppose, what we don't oppose, we support the Combat 
Meth Act as an administration. Send it, we will sign it.
    Mr. Souder. We like leadership, I know. I appreciate that 
you never opposed it. And you informed me early on----
    Mr. Walters. The President will sign it when Congress 
passes it, the sooner the better. November would have been 
better than December, February is better than March.
    Mr. Souder. Well, the President, for the record, has not 
vetoed any bill. The question is leadership. And the fact is 
that different agencies inside the Federal Government, inside 
the executive branch, were opposing the bill.
    Mr. Walters. But I have been up consistently with Members 
of Congress----
    Mr. Souder. You have not opposed this.
    Mr. Walters [continuing]. And I have said send us the bill, 
send us the bill in a variety of the earlier forms. The one 
thing I have worked with Members on is said I do not want a 
floor on the ability of States to operate precisely because 
State regulation is making a difference. And we don't want to 
cutoff States that want to have heavier regulation. Congress 
has accommodated that. And I think the sooner we get this, as 
you pointed out, the data I arrayed, we have creep into States 
that now don't see this as a major problem. The law will allow 
us to give protection to some of those States. And the good 
thing is we have a tool that works on the localized production 
of meth. We want to use it.
    Mr. Souder. Ms. Norton.
    Ms. Norton. Thank you very much, Mr. Chairman.
    Let me begin by indicating that there are some very 
important points of agreement that I would like to note. I 
looked through several of the charts. I have a very serious 
question about the chart that you and Mr. Souder were talking 
about. I am reluctant to get into it, but I have a meth 
question and a question about that chart.
    This is a wonderful chart. This is a chart about the drug 
courts. And this administration has consistently asked for an 
increase in drug courts. You did so last year, and it took the 
Congress to knock that down. It is such an important prevention 
device, and you have not been deterred, apparently, by being 
cut by the Congress. And if you are really talking about 
preventions, if you talk about carrots and sticks, if you are 
talking about tough love, a very good place to begin is with 
drug courts. You have to scare the bejeezus out of them, 
really.
    And I must tell you, being brought before a judge that is 
on a drug court has proved a very effective way to do it. I 
can't tell you how many lives you have saved, economic and 
actual lives you have saved by sticking with the drug court 
notion which, you know, took off. It was in experimental phases 
we can see, in the late 1980's and 1990's, just kept taking 
off, and I encourage you to continue to do that no matter what 
the Congress does.
    I also am in strong agreement with your priorities--
stopping drug use before it starts, then you go to healing drug 
users and then disrupting the markets. It seems to me that is 
the right order of priority.
    One of the reasons I so favor your first priority, starting 
before it stops, goes back to something I think Mr. Souder has 
heard me say in this committee. Those of us who aren't 
addicted, let us say, to cigarettes or to drugs don't have a 
real appreciation, I guess, of what real addiction is about. 
But everyone has something that they wish they could give up. 
And for me, you know, it is sweets. So I can't imagine, given 
how difficult it is for me to push aside my sweet tooth, what 
it must be to be truly addicted to a harmful substance, 
particularly since we know now addiction to alcohol, to drugs 
has some compulsion factors that we are still trying to 
understand. So getting it early could not be more important. 
And it seems to me it is the most important thing we could do.
    I am not one of those who--I am a great admirer of the 
multitude of programs to get people off drugs. You see, I don't 
believe it. I really don't believe by sitting down and talking 
to somebody or--I believe you can get people off of it and then 
they go back on it. We all understand what that kind of 
recidivism is about. We don't understand--I mean, if you talk 
about smoking, people who smoke, whatever those things they--
you know, they put on them all the time. I mean, you know, I 
just think we have to begin to--science is going to help us on 
this.
    So until then, you say, hey, look, just get it before it 
starts. I would like you to reconcile that with a very small 
portion of the budget to be spent on prevention. Just, as I 
understand it, 11 percent of your projected budget you ask for 
prevention programs. And I was so disappointed that represented 
a 2 percent decline from your fiscal year 2006 levels. I 
understand there is a tiny increase overall, but the last place 
I would have expected an administration who has focused 
relentlessly on drug courts to take from would be the already 
small part of the budget that goes to prevention, the best 
chance we have on drug addiction in this country, in my 
judgment.
    Mr. Walters. Yes, thank you, Congresswoman. We have tried 
to focus, as we talked earlier, on what we think are the 
programs at our disposal that work. And one of the areas that 
causes the array to look the way it does is--we have just been 
talking about this--that we have a disagreement over whether 
the outputs from the Safe and Drug-Free Schools program, the 
larger prevention program in the Department of Education, 
because it is limited in its focus on drug prevention, is an 
effective way to target that money. I wish it was. We have 
tried to work with this before. The chairman and I have worked 
on this, and I have worked with others, to try to build some 
accountability into that program. And I am not saying there 
aren't people who are using that money for good things. I have 
gone around the country, too, and I know there are.
    But the issue is not whether out of hundreds of millions of 
dollars a few people are doing a good thing or some are, I 
think the proper management and demand in this environment for 
sustained funding is that the program itself can show that it 
can generate results. Drug courts do that. The Media Campaign, 
we believe, does that. The community coalitions campaign, we 
believe, does that. The HIDTA program, I believe, produces 
results. Again, we have been back and forth about the HIDTA 
program, but the fact of the matter is in this budget, as you 
have seen, the administration has taken, again, some pretty 
hard decisions about revenue sharing with State and local law 
enforcement, some of which are not going to be popular and may 
not even be sustained.
    In this budget, we have proposed level funding for the 
HIDTA program. But on the prevention side, what we are trying 
to do is support those avenues that we think will make a 
difference. And in a competitive environment where, as you know 
as well as I do, you have to make these decisions and provide 
support for education programs, for health programs, for job 
programs, and for others, what we have tried to do is maintain 
those that will show they can drive the prevention forward in a 
direction it has been going and follow through, and we have not 
been able to request money for programs that are not as 
effective.
    Ms. Norton. Do you do control studies on these programs? 
How do you know what is effective and what is not effective 
unless you are doing control studies?
    Mr. Walters. Well, they are required by the laws passed by 
Congress to have performance measures and release those 
performance measures as a part of what they submit to the 
Congress and what they submit to OMB.
    And look, here is the real problem, I think, with the Safe 
and Drug-Free Schools program. It is conceptually not intended 
to create specific results. It is intended to be a block grant. 
It is intended to have money which is not specifically 
directed, but for a range of activities to be deployed as State 
and local officials see fit within the parameters of that 
program. The problem is, in an environment we have like drug 
courts, where you have a certain number of individuals going 
in, a certain number of individuals going out, where we have a 
Media Campaign where we are measuring attitude changes on the 
target audience, where we a community coalition campaign that 
is measuring declines in drug use----
    Ms. Norton. Mr. Walters, you have a convert on that. You 
are talking to somebody that doesn't believe in these people 
saying, you know, we have cured X number of people and so 
forth. But what you haven't convinced me about is that there 
are not a sufficient number of programs that in fact have 
undisputed results that should be funded. And indeed--Let me 
tell you the difficulty. People see the administration as 
eliminating programs in order to cut budgets. I think you would 
have had a better chance, it seems to me, of convincing people 
like me who are with you with all these programs, shucks, in a 
school system, you--you, School System, figure out where your 
folks--I am all for local control. You know, I argue that all 
the time, for very good reasons.
    But the only way I would do it, of course, would be to say, 
look, School Systems, we have looked at programs tried in 
representative school systems; you are in a big school system, 
you are in a rural school system, you can choose one of these 
programs. But you sure can take this money, you know, and give 
it to, you know, X, Y--Ballou High School, you can have this, 
Wilson, you can have your share. You wouldn't be able to do 
that. That is something I would support.
    The notion, though, of cutting prevention programs because 
there are not enough good programs out here, that is very 
much--given the priority you put on prevention, that is very 
hard for me to accept. Because you have the right priority. You 
have not put your money where your mouth is.
    Let me go on to my second question.
    Mr. Souder. Will the gentlelady yield to that point, to 
kind of--I just want to add one thing that I have been 
brainstorming that has not been developed. For example, one of 
the problems is, by driving it to the individual school, often 
they don't have enough money to do something, so therefore they 
couldn't afford this type of program. But we could do that by 
who we drive the dollars down to. If instead of--a lot of my 
school districts have just one high school in it. If you did, 
not to the Governor but to some sort of coalition, whether it 
is a county or a four-county area or different things, and 
then, like you do with CTAC, where there are certain allowable 
things--you don't allow police departments to just come in and 
say this is what we want, you say these are the things that 
work in narcotics. And then you review that and say in this 
size school, this type of thing works. And then for the type of 
area that this area is representing, if it is a cluster of 
rural districts, you say what tends to work in rural districts, 
what are some national models, and this is pooled between those 
schools, much like what we do in drug-free Indiana, much like 
we do with some of the community antidrug coalitions.
    There are creative ways that we can work with this other 
than have it be just run out of Washington, but Washington 
could give some guidance. And the question is, how can we make 
this program more effective because it is one of our only 
prevention things. It is in the school and it serves to back up 
the National Ad Campaign.
    Mr. Walters. Just one suggestion here from my own 
experience, but--this is not obviously an administration 
suggestion in the budget. First of all, it is a lot of--keep in 
mind, I want to emphasize one point you made and make one 
comment. It is a lot of money, but when it gets down to 
individual schools, it is not a lot of money. So part of the 
problem with this program is one of the demands of 
effectiveness, you are right, if you are going to be fair, when 
you get down to where the rubber meets the road, it is, like, 
``I'm supposed to do what with this?''
    So the issue is can we focus it. These block grants, I 
don't need to tell you, there is enormous controversy within 
the Congress about changing the formula. So it is not so easy 
to say, well, OK, then just focus it. But second, the minimum 
thing, I would say, as we are trying to do with community 
coalitions and we are trying to do with others: measure drug 
use in the school every year so people know what is happening 
and they can measure whether the efforts combined are working 
there or not. That has not ever been a requirement of this 
program. So when you are trying to say, well, how do we have 
accountability, if you don't have accountability against that 
measure, what do measure and it makes any difference that you 
know is going to be connected to making the problem smaller?
    Ms. Norton. Thank you.
    Let me go on to a very serious question I had. You are a 
professional in this field, are you not?
    Mr. Walters. Well--my hesitancy is I am not sure there is a 
professional drug czar, but----
    Ms. Norton. No, I am talking about what you have been doing 
for 4 years.
    Mr. Walters. I mean, I have worked in this policy issue in 
Washington for a while, yes.
    Ms. Norton. The reason I ask this is because I have a very 
serious question. The most important issue for me as a Member 
of Congress and an African American really isn't anything that 
finds its solution in a piece of legislation, although 
legislation is, like almost everything, a part of what we can 
do. It has to do with the decline and fall of family life in 
the United States and particularly in the African American 
community. I have joined with a good friend of mine on the 
other side of the aisle in the Senate, Sam Brownback, with whom 
I cannot have more thoroughgoing disagreement on something he 
is doing in the District of Columbia called Marriage 
Development Accounts, because I am so concerned about it, the 
notion that marriage has gone out of style, as it were. I hate 
to use it that way. You have White children being born to 
never-married mothers, you have twice that African American 
children. Anybody who thinks that you can raise children that 
way, it seems to me, hasn't gone into communities where mostly 
mothers are trying to raise children on their own. So I have 
very, very serious concerns here.
    So when we look to the various causes, they are 
multitudinous--some internal, some historic. They are very 
large. And there is no pathway into solving this problem.
    But I have to ask you, Mr. Walters, about one cause that is 
explicit. And I want to ask you very frankly what your view is 
and if you think this policy should continue. That is the 
policy that began in panic after crack was introduced in 
society in the early l990's and crime went up so badly, and we 
developed a difference in the treatment of crack cocaine and 
powdered cocaine. Democrats and Republicans both embraced this 
difference not understanding what I am sure were unintended 
consequences. Well, the consequences were the low-level drug 
dealers, mostly people from the poorest communities, got caught 
up, while the guys on top, the ones you want to go at in 
Priority No. 3, Disrupting the Markets, were left to continue 
to plow drugs back in the poorest communities in the United 
States.
    What is the effect on marriage when somebody gets a felony 
record, and most of these drugs types are people who were 
dealing--very little in the way of violent crime. Jails are 
full of these nonviolent drug-addicted dealers. You finally get 
out with a felony conviction, you know, and it is written on 
your forehead. And if you happen to be African American, it is 
written on your Black forehead. It was bad enough being Black 
if you came out of a poor community, but now the word 
``felony'' is over that.
    Well, people will have children. African American women 
know how to control children in various ways, from abortion to 
birth control, so they have one perhaps, no more than two. 
Their birth rate is not much different than the birth rate of 
White women. But the whole notion of marrying the father has 
very much disappeared, because in a real sense you marry 
somebody who is--disproportionate numbers of whom have either 
been to jail and have a felony record or are hustling--that is 
not in your jurisdiction; it has to do with unemployment, the 
rest of it--are hustling and, God knows, on their way to jail. 
Even though a pregnancy occurs, the family will say do not 
marry him. In your generation and mine, of course, the family 
said the opposite--give the child a name even if you don't stay 
with him. Or whatever. The way to look at such a man, ripe for 
such a charge or with such a charge, is that he is 
unmarriageable, he is not deemed to have the capacity to become 
productive in the society.
    So if you are looking for various things, and you see I am 
looking for everything I can find--that is why Sam Brownback 
and I are working on Marriage Development Accounts to make 
marriage attractive again because part of the problem is, of 
course, that people wonder whether they want to take on 
financial responsibilities of marriage. It encourages savings 
and it rewards saving. But I don't see how one can overlook 
crack and powdered cocaine.
    If one wanted to overlook it or consider that this is 
Eleanor Norton, Black woman in Congress, then I would have to, 
lawyer that I am, cite you to perhaps precedents that are more 
persuasive--like Supreme Court Justices, beginning with Justice 
Rehnquist or Justice Kennedy. For a Justice to speak out, as 
they have, against the guidelines that result in this 
disparity, saying, as they have, that rank injustice has been 
done. And for us over here to kind of ignore it and keep going 
willy-nilly while a whole generation of Black people are 
condemned now to losing the family culture, and a whole 
generation of Black children are being raised with no father, 
and a whole generation of Black women, including middle-class 
Black women, find such a disproportion between the number of 
marriageable people without records, even if they are not 
already in the middle class, marriageable Black men and 
marriageable Black women, so that there is a whole generation 
of Black women who will never be married.
    Now, I cannot tell you that you have or I have the answers 
to such a complex problem, but I can tell you one thing, that 
disparity, which sweeps up boys and men without economic 
opportunity in the poorest Black communities is one cause. It 
is a cause. If a woman makes a mistake, she is making another 
mistake to marry this man, and these children are left without 
a parent. And I have to ask you in your professional judgment, 
whether you think it is time to at least take another look at 
the disparity between the sentences for powder cocaine and the 
sentences for crack cocaine.
    Mr. Walters. This has been, obviously, a concern almost 
since the differential in sentencing was enacted. Of course, 
the original reason was that people were trying to protect 
people in the Black community. I was here during the Reagan 
administration. I worked with Charlie Rangel, and you and 
others here on this that were outraged that on top of the other 
burdens that Black inner city Americans bear. Someone had 
designed an incredibly addictive and destructive drug, I mean, 
similar with what we talk about with meth. If you change the 
drug, you would be talking about crack if you talked about the 
inner city instead of rural western United States.
    I do think that, obviously, the goal here was to say if we 
had harsh penalties that really put people away, we would stop 
this cancer from eating one generation after another.
    Ms. Norton. And you and I agree these are thoroughly 
unintended consequences. But one has to be a fool to see 
unintended consequences and say, ``Let's keep on doing what 
we're doing.'' What do you want to do, wipe out any prospect 
for African Americans? Is 70 percent born to--not enough? What 
will be enough? Will 80 percent turn this around? Have we not 
reached the point where everybody ought to take a hard look at 
this, even if they are not prepared to make a judgment on it.
    Mr. Walters. And I think the other part of this is that the 
adjustments that have been made still leave some disparity 
here, as you point out. I mean the effort to create a bypass a 
number of years ago if you were not a repeat offender, if you 
didn't have a gun, there was a bypass created in the Federal 
law. Of course, the Federal law also is--it is used in some 
jurisdictions, but not in all jurisdictions. Washington is 
somewhat unique in that regard.
    It seems to me that the real----
    Ms. Norton. Most jurisdictions in their own criminal law 
don't have the guidelines that the Federal law has, and the DA 
will sometimes pass off to the Feds, really go get them, so I 
understand that. It is interesting that the States haven't 
followed suit with what the Federal Government has done.
    Mr. Walters. I agree with you that there is--I think that 
reflects the difference about what is the proportionate level 
of punishment, which is always going to happen in 
jurisdictions, and it partly is going to be based on threat, it 
is partly going to be based on individual judgments.
    To get to the thrust of your question, of course, the 
Federal law also does not actually involve a large number of 
the offenders. If this were the only thing that were pulling 
in--I am not trivializing its contribution, but it is a small 
part of it. Obviously, the underlying issue is substance abuse, 
and we have let substance abuse particularly impact cities. I 
mean I have been here a long time and I have said before, if 
what is happening to the inner cities--permit me to leave meth 
aside for 1 minute, and rural America in our debate--if what is 
even happening today with crack and powder cocaine, were 
happening not in downtown Washington or Baltimore, but in Chevy 
Chase, D.C. or Maryland, our response would be different.
    We would not allow open-air drug markets in those areas. 
Why? Because they are poisoning the people who live there. They 
are taking their dollars from much less to begin with, and 
turning them into an asset against economic opportunity and 
education and safety and health. They're spreading blood-borne 
diseases. They are turning people's families into hollow 
shells. I agree with you.
    I think that the key here is that we can look at the 
proportion of enforcement, but we have to--I visited a re-entry 
program in New Jersey within the last week--we have to first 
bring people back and use what we have in helping young men 
learn how to be parents that are coming out of the 
institutions. We have too many there to forget them. And there 
are programs that work here and we are funding them, and we 
need to have more resources to fund those re-entry programs.
    We also want to start at the beginning, I think, and that 
is why I am proud that 40 percent of our community coalition 
dollars go to disadvantaged communities. We worked with Mr. 
Cummings on trying to make sure that this gets to more places. 
I believe we ought to have more of these community organization 
funds in the D.C. area. And I have asked my staff, and we have 
tried to work with people in the D.C. metropolitan area to 
build more of these capacities. But I agree with you, the 
problem also is that what we allow is young males, White and 
Black, particularly African-American males, to get into trouble 
too far before we pay attention.
    I tell people--and I know that there's resistance to this 
and I have talked to others--if you want to also stop this--and 
I am not begging the question about the distinction--but if you 
really want to stop young men starting this, it is time to 
connect the dots on public health measures and do drug testing. 
We are working with the city of Detroit today to bring drug 
testing to what is considered to be the worst school in 
Detroit. Why? Because they have talked about this and 
understand once you get over it, it is not going to be used as 
punishment. It is going to be used as an enormously powerful 
prevention tool, and it is going to be used to get people help 
early before they are in the juvenile justice system.
    There is a lot of sensitivity. Can we do this? Is it really 
going to be run that way or is it going to be run a different 
way? If we can do that in Detroit, I believe we can show this 
can be done in a whole range of settings.
    And what does it also do? It shows those kids who are at 
risk that we have programs for, you know, bringing adults into 
their lives when the family structure falls apart. We don't 
connect them soon enough. The testing shows you also which kids 
are going to bring a gun to school, which kids are going to be 
truant, which kids are on the path to poor academic 
performance. It allows us to wrap those services around, and 
doesn't allow us an excuse to say, well, we didn't know what 
was going to happen until he got in a fight or until he got 
arrested.
    Ms. Norton. Mr. Walters, I couldn't agree with you more. I 
have my own Commission on Black Men and Boys. I mean, here I am 
a card-carrying feminist, and I could not agree with you more.
    I have to ask you very directly as a professional in this 
field, not speaking for the administration, do you believe it 
is time to take a second look at the disparity between crack 
cocaine and powdered cocaine, either as a matter of fairness, 
as Supreme Court Justices have said in a number of speeches, or 
as a matter of policy on other counts, or do you support the 
present disparity?
    Mr. Walters. I don't think--I can't separate myself from my 
position, so I can't--my opinions are not just my opinions in 
this job, and I understand that. I think we are always willing 
to work. We have been working with Senator Sessions in the 
Senate and others about looking at--if there is going to be a 
review of the law here, what it could be.
    At this point I will tell you that, from my experience 
looking at this, the relative number of individuals that are 
brought into the crack mandatory minimum--because that is what 
we are really talking about--is fairly small, and it is partly 
smaller because the Federal Government is not generally 
focusing enforcement at that level.
    In addition, you have to separate those who have pled down 
from a more serious charge to get to the ones you want to talk 
about, which are those who are charged largely because they are 
not a serious offender. The bypass has removed some of those 
individuals. I do think though that the issue here is it is 
symbolic now, and I think that is really what we are talking 
about because a number of individuals is really relatively 
small. I can get the number for the record.
    It is known to have a disproportionate effect, and the 
issue, is, why should that be? Again, it has not stopped 
Congress from passing a mandatory minimum, as you probably 
know, for meth that has its pattern on the crack mandatory 
minimum. That will also be a racially disproportionate 
enforcement mechanism. Now, again, the argument here though 
that we have had, and that I have had, and I know you have 
probably had if you talk about this, is when you change the 
penalty to be less severe on the offender--and I recognize the 
offender also masks children, wives, families--but the 
offender, what are you doing to the victim, the person who they 
are making a living off of poisoning? Sometimes they are also 
poisoning themselves, but what I have heard from people I have 
talked to in the Black community when this comes up, who 
sometimes oppose it--not everybody and I think there is a 
pretty broad consensus this should be changed in the African-
American community of people I talk to--but there are people 
who are in that community who say, ``Who speaks for us? Who 
speaks for saying that these people are doing something really 
wrong, given the power of crack and what we know.''
    Ms. Norton. I will tell you who speaks for them, the people 
they elect, and I can tell you that the Congressional Black 
Caucus, speaking for them--and if they don't like what we are 
saying, they know how to tell us--are hearing these are killing 
our families, this is killing our community.
    Could I have one more, ask one more question on meth and I 
am interested in knowing about its possible crossover effects. 
I don't quite understand why it is being contained. I 
understood something about the big city incubator for heroin, 
for example. I don't understand meth and what we might do to 
prevent its spread. I particularly wondered about this chart, 
and I must say it is very clever. It was the other chart that 
was up there, and I think Mr. Souder was dealing off of that 
chart. This is a chart that is designed to show that the number 
of meth users are going down, because it combines the meth 
users with other drug dependencies, if most drug users didn't 
get there by being on something else. That is kind of drug 
abuse 101. Most people don't jump into the bad drugs like 
heroin, cocaine or meth without going through the pathways. It 
can be anything from marijuana to alcohol and up. If you looked 
at these people--and I take it there is no illicit drug 
dependence abuse--it should have said ``except for meth.'' 
Then, of course, you can look, and the numbers go down.
    I don't understand that way scientifically of looking at 
drug use because I don't understand it to comport with how drug 
dealers in fact get to hard drugs independent, and then somehow 
you factor in all these things.
    My other question was related. I saw a television program--
maybe others saw it--recently. It was the most fascinating 
thing I have ever seen--maybe it was the program, maybe it was 
a little slip--that showed that meth addiction, severity of 
addiction, went up and down according to almost absolutely 
correlated to purity. And thus, they suggested that if you 
looked at purity, you would know when addiction--and then they 
put the two lines together, and I have never seen anything like 
it. So my question is, why talk about drug addiction in this 
way, when our common knowledge is that is not what addiction is 
all about. We have to assume people are multi-addicted, and 
does it really help us get rid of addiction to look at it that 
way?
    And the second is, is purity the thing to look at when we 
look at meth, and is meth going to come to the big cities any 
time soon?
    Mr. Walters. First, I apologize if the chart is not clear. 
What it is designed to show is not that meth is not serious. 
What it is designed to show you is our ability to measure, 
through the largest national survey we have, meth use. While it 
has been constant over the three comparable years of the 
survey, that within that constancy for population age 12 and 
above, every year the number of addicted people among the meth 
users has increased by 50 percent. The red bar--I am sorry that 
is not in color--the red bar is those whose primary addiction 
is meth. The blue bar is those who have a primary addiction to 
something else and also use meth. Both of those are increasing 
at a rate of 50 percent per year, while the total number of all 
meth users, addicted and non-addicted, has remained constant.
    This has become, not unlike--if you have seen similar data 
for heroin--the conversion rate from first use to dependency is 
extremely rapid, and in fact, for heroin at different times in 
the past, the number of addicted users exceeds the number of 
non-addicted users, because we have had longitudinal studies 
that show if use heroin 10 times, you have a 50 percent 
probability of becoming addicted to it because it is that 
addictive. Methamphetamine is showing some of those similar 
properties here, and it helps also to explain why while you 
could have rates of use that may not change, that nonetheless 
put enormous strains on the treatment system, it is not--
fortunately, there is not enormous number of new users coming 
on board. In fact, that proportion of the overall user 
population is shrinking.
    The problem is, the consequences for addiction are 
increasing at 50 percent per year. We need treatment resources 
here.
    And also on the point you made, which is very important, 
people are coming to meth from--I have met people who say they 
started with meth, and I don't doubt some have, but generally 
speaking, they are coming to meth from using other drugs. What 
that means--Mr. Souder's and my earlier conversation about the 
Media Campaign, that is a different prevention problem for us. 
We can't run a prevention campaign saying, ``Look, we know you 
abuse alcohol and marijuana, but don't use meth.'' That is not 
a very powerful Ad Campaign. And we certainly have the news 
media talking about meth in a way that is very powerful.
    So we are trying to look at prevention strategies and 
intervention strategies that work, given the different 
phenomenon of this problem. It is serious, and I think on the 
issue of cities, yes, we are very worried it could come to 
cities. Why? It already has done that in the Southwest, 
certainly Los Angeles area. And second, as you see in the drug 
strategy--and we have a chart but I won't bother to put it up 
now--the number of small toxic labs that we have all been 
concerned about or should be concerned about because of the 
consequences of the environment for children and others is 
going down. The remaining source that is now becoming bigger, 
is crystal meth being made in Mexico and distributed by the 
same organizations that are bringing, in some case, cocaine and 
heroin and marijuana. They have marketing outlets in our 
cities. They have the capacity to go nationwide very rapidly.
    That is why we are working with the Mexican Government to 
control the precursor chemicals that are now being focused in 
Mexico to distribute this. That is why we are also looking, in 
addition to local law enforcement against small toxic labs, 
task forces that will deal with these organizations as we have 
with cocaine and heroin, that are international. That is why I 
met with the Mexican ambassador this morning, to talk about how 
we can strengthen those cross-border operations, as well as the 
efforts we are making to cutoff--we have cutoff significantly 
the precursors necessary to make meth from Canada, from within 
the United States, and the amount of production is declining 
over-the-counter drugs as a result of regulation, which we want 
to follow through on.
    But the issue now, and the danger for our cities, is if we 
aren't successful on the Mexican produced, organization 
distributed meth, you will have meth as a bigger problem in 
major cities if the patterns were to continue.
    Now, we don't entirely understand this, because there is a 
tendency for these drugs, like a disease, to spread as an 
epidemiological phenomenon. They don't come from nowhere. They 
come from contact of one person that is involved to the people 
around them. So there can be pockets of intensity. There can be 
limits, but that is why I talked about the need to localize 
this, especially in the early stages. If we are going to wait 
until that is--Mr. Cummings mentioned there is 19 million 
Americans who use an illegal drug once a month or more 
frequently. Fortunately, by a comparative measure, which is not 
a census, this is about 600,000, 700,000. If we want to wait 
for this to be 3 million, we will have a meth problem of 
gigantic proportions. Our goal is----
    Ms. Norton. It is going to depend a lot on the price of 
crystal meth.
    Mr. Walters. Purity and price, yes. I believe that what you 
saw and what you cited is a critical matter because that 
reflects availability. Those changes up and down though, I 
think the suggestion--I saw just a transcript of the Frontline 
program--the suggestion was that the drug traffickers are 
manipulating the purity. We don't have perfect knowledge of 
this, but I think the actual--if you look over time there, what 
is actually manipulating the purity is the effectiveness of 
enforcement in cutting off pseudoephedrine to major labs in 
California that were run by organizations, the ability to 
control some of the pseudoephedrine at the State level, that in 
fact, it is a consequence of the law enforcement and 
regulatory----
    Ms. Norton. If that is the case, how come it goes up and 
down?
    Mr. Walters. Well, because what happened was, first of all, 
you had large production by organizations largely focused in 
California when pseudoephedrine was available inside the United 
States. We cutoff that source of large bulk supply. There was a 
downturn. Then it came from Canada. They established routes 
through pharmaceutical firms in Canada. We worked through it at 
the RCMP to cut that off. Then the enormous explosion of small 
toxic laboratories occurred from over-the-counter production. 
That was lower purity, but more availability. That has been--it 
has dropped over the last year by about 50 percent.
    Ms. Norton. So when you say it is purity and--I mean the 
purity lines were converged absolutely. I am going to ask you 
to go back and have somebody do a study to prove what you are 
talking about, law enforcement.
    Mr. Walters. Sure.
    Ms. Norton. But are you saying purity was not a factor or--
--
    Mr. Walters. No, purity was a factor.
    Ms. Norton [continuing]. Was an additional factor?
    Mr. Walters. No. I was saying the cause of the purity--
again, we don't know this perfectly, and I don't want to 
overstate this--the cause of the purity change I believe was 
suggested to be manipulation by drug traffickers. There may be 
some effort to adjust this, but generally speaking, they are 
producing what they can produce with the picture that is put on 
them.
    Ms. Norton. But they may have pressure to produce more to 
get to more users. Wouldn't they be inclined to dilute what 
they got?
    Mr. Walters. Well, they may not be able to produce as pure 
a product when their precursor chemicals they need to produce 
it are not as available, yes. That is what I am saying. And 
when they have to use smaller lab sites--again, this is a 
dangerous drug. The purer it is, the more dangerous it is. Does 
the change in purity reflect manipulation by the bad guys, or 
does the change in purity reflect the progress of the good 
guys?
    Ms. Norton. I appreciate what you are saying, Mr. Walters, 
because you are approaching it scientifically and you are 
talking about hypotheses. I wonder if you are in a position, 
the drug czar is in a position to put out an RFP so we can find 
out what in fact produces this, and pinpoint, so that we know 
more then perhaps about how to stop it.
    Mr. Walters. We are trying to look at that internally. We 
will be happy to share those results with you.
    Mr. Souder. Also, there is more purity if an area is 
crystal meth as opposed to mom and pop labs, because they don't 
achieve the same purity level. So depending on the mix of the 
meth, you get a different--so, let's say in Oklahoma--part of 
this is going away, so let's say in Oklahoma they are doing mom 
and pop labs. They do the pseudoephedrine law that purity was 
lower. We shut down the mom and pop labs. They move to crystal 
meth. The purity goes up so the addiction goes up. Then you 
bust a big distribution network, which has a lag effect. The 
Canadian bust he is talking about at Windsor and Detroit, we 
think took out at that point 40 percent of the raw 
pseudoephedrine for a period of time in the United States. Then 
it found another way to come in.
    But the problem, when we talk about meth, is that there is 
two types of meth going on in the country, and the urban threat 
is crystal meth, although we are starting to see some labs. But 
it is not just a rural phenomena, and you repeated that here, 
and that you clarified. Phoenix has it. Los Angeles has it. 
Minneapolis has it. And there was an early myth that because 
right now crack is still the choice in most major cities and 
African-American areas. But in Minneapolis, at our hearing in 
St. Paul and the Minneapolis side, one neighborhood gang in the 
African-American community switched from crack to meth, and all 
of a sudden, 20 percent from a standing start of zero, 20 
percent in I think it was 3 months of the people who were 
addicted--I believe it was a Drug Court measurement--in the 
African-American community, were meth predominantly, because--
and that city was, I believe, 5 to 10 percent, and it showed 
that it could be a crack epidemic if the distribution network 
changes.
    And I believe the disservice that you are continuing to do 
is to act like it has flat-lined, when in fact, this is a 
rolling phenomena.
    In my district, Elkhart and Fort Wayne, the two biggest 
cities, don't have any meth or minimal. Elkhart is starting to 
get some, because crack is still the drug of choice. But as it 
moves and we get control out here in the mom and pop labs, and 
the crystal meth comes back in, all of a sudden--and so the 
line is changing, and the reason we have a flat line and the 
reason we are going to see purity go up in America, could be, 
is that the bill we are about to pass in the Combat Meth Act, 
is going to regulate pseudoephedrine at a Federal level.
    Now, that means the mom and pop labs are going to be 
scrambling as to how to deal with this. The net effect of that 
is, is crystal meth is going to jump short term. But we also 
put international precursor controls in, and agree we can do 
that, and get control of the Southwest border, they will have 
to water it down and blend it in order to do it.
    So you have to have multiple different strategies. But to 
understand that, you have to understand the risk of the drug.
    I thank you for your patience. I know this is kind of our 
Valentine's Day gift to you, and you love this every year, to 
come up here, but we appreciate the thoroughness and the 
ability to talk this through.
    I personally believe that the disparity is wrong in 
cocaine, but I believe we need tougher penalties on powder. The 
drug of choice of Whites should not be less severe than for the 
drug of choice that is more likely to be African-American. 
Those are just tilt area, but to the degree your statistics are 
right, I think what Senator Sessions is looking at is, OK, if 
we take this down, do we also increase the powder? And I 
thought it was a good discussion, but I would have a slightly 
different resolution to it.
    But I thank you for your testimony. We will continue to, I 
am sure, try to refine as we move through, and particularly, 
since I believe Safe and Drug-Free Schools is still likely to 
stay there, and as we move into the next thing of how to 
creatively try to address this huge prevention program, 
including the drug testing.
    With that, the subcommittee stands adjourned.
    [Whereupon, at 5:03 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T9579.021

[GRAPHIC] [TIFF OMITTED] T9579.022

[GRAPHIC] [TIFF OMITTED] T9579.023

[GRAPHIC] [TIFF OMITTED] T9579.024

[GRAPHIC] [TIFF OMITTED] T9579.025

[GRAPHIC] [TIFF OMITTED] T9579.026

[GRAPHIC] [TIFF OMITTED] T9579.027

[GRAPHIC] [TIFF OMITTED] T9579.028

[GRAPHIC] [TIFF OMITTED] T9579.029

[GRAPHIC] [TIFF OMITTED] T9579.030

[GRAPHIC] [TIFF OMITTED] T9579.031

[GRAPHIC] [TIFF OMITTED] T9579.032

[GRAPHIC] [TIFF OMITTED] T9579.033

[GRAPHIC] [TIFF OMITTED] T9579.034

[GRAPHIC] [TIFF OMITTED] T9579.035

[GRAPHIC] [TIFF OMITTED] T9579.036

[GRAPHIC] [TIFF OMITTED] T9579.037

[GRAPHIC] [TIFF OMITTED] T9579.038

[GRAPHIC] [TIFF OMITTED] T9579.039

[GRAPHIC] [TIFF OMITTED] T9579.040

[GRAPHIC] [TIFF OMITTED] T9579.041

[GRAPHIC] [TIFF OMITTED] T9579.042

[GRAPHIC] [TIFF OMITTED] T9579.043

[GRAPHIC] [TIFF OMITTED] T9579.044

[GRAPHIC] [TIFF OMITTED] T9579.045

[GRAPHIC] [TIFF OMITTED] T9579.046

[GRAPHIC] [TIFF OMITTED] T9579.047

[GRAPHIC] [TIFF OMITTED] T9579.048

[GRAPHIC] [TIFF OMITTED] T9579.049

[GRAPHIC] [TIFF OMITTED] T9579.050

[GRAPHIC] [TIFF OMITTED] T9579.051

[GRAPHIC] [TIFF OMITTED] T9579.052

[GRAPHIC] [TIFF OMITTED] T9579.053

[GRAPHIC] [TIFF OMITTED] T9579.054

[GRAPHIC] [TIFF OMITTED] T9579.055

[GRAPHIC] [TIFF OMITTED] T9579.056

                                 <all>

</pre></body></html>
